<html>
<title> - THE ADMINISTRATION'S SOUTH ASIA STRATEGY ON AFGHANISTAN</title>
<body><pre>[Senate Hearing 115-798]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 115-798

                   THE ADMINISTRATION'S SOUTH ASIA 
                        STRATEGY ON AFGHANISTAN

=======================================================================

                                 HEARING

                                BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION
                               __________

                            FEBRUARY 6, 2018

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                   Available via the World Wide Web:
                         http://www.govinfo.gov


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-387 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------




                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD YOUNG, Indiana                  CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey


                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                           C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator From Tennessee....................     1


Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............     2


Sullivan, Hon. John J., Deputy Secretary, United States 
  Department of State, Washington, DC............................     4

    Prepared statement...........................................     6


Schriver, Hon. Randall G., Assistant Secretary, Asian and Pacific 
  Security Affairs, U.S. Department of Defense, Washington, DC...     7

    Prepared statement...........................................     9

              Additional Material Submitted for the Record

Responses of John J. Sullivan to Questions Submitted by Senator 
  Benjamin L. Cardin.............................................    41


Responses of Randall G. Schriver to Questions Submitted by 
  Senator Benjamin L. Cardin.....................................    44


Responses of John J. Sullivan to Questions Submitted by Senator 
  Ron Johnson....................................................    45


Responses of Randall G. Schriver to Questions Submitted by 
  Senator Ron Johnson............................................    46


Responses of John J. Sullivan to Questions Submitted by Senator 
  Jeanne Shaheen.................................................    47


Responses of Randall G. Schriver to Questions Submitted by 
  Senator Jeanne Shaheen.........................................    47


Responses of John J. Sullivan to Questions Submitted by Senator 
  Todd Young.....................................................    48


Response of Randall G. Schriver to Question Submitted by Senator 
  Todd Young.....................................................    48


List of Afghanistan Compact Benchmarks...........................    49


Response of Deputy Secretary Sullivan to a Follow-Up Question to 
  His March 7, 2018 Briefing to Senator Menendez Regarding 
  Efforts to Counter Russian Disinformation......................    83


Correspondence Relating to Assistant Secretary Schriver's 
  Testimony [see pages 22-23.]...................................    87


Assistant Secretary Schriver's Response to a Request for 
  Information from Senator Corker................................    89



                             (iii)        

 
        THE ADMINISTRATION'S SOUTH ASIA STRATEGY ON AFGHANISTAN

                              ----------                              


                       TUESDAY, FEBRUARY 6, 2018

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Bob Corker, 
chairman of the committee, presiding.
    Present: Senators Corker [presiding], Johnson, Isakson, 
Gardner, Young, Barrasso, Flake, Paul, Cardin, Menendez, 
Shaheen, Coons, Udall, Murphy, Markey, Merkley, and Booker.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    The Chairman. Senate Foreign Relations Committee will come 
to order. We thank all those in attendance.
    In rolling out its new South Asia strategy last August, the 
administration underscored the United States' hard-fought 
security gains in Afghanistan and reiterated our commitment to 
helping establish a foundation for political resolution. With 
the recent reports of shrinking government control of 
territory, continued high attrition of Afghan forces, and 
deadly attacks in Kabul by Haqqani and ISIS Khorasan, it is 
clear that foundation is a long way off. But, we are encouraged 
by the troop strength authorized in the new strategy, at 12,300 
military personnel, with an additional 1,000, on request, which 
is approaching the level our force commander requested in 2014. 
Our NATO and non-NATO allies have also reinforced their troop 
commitments and support to Afghan forces through 2020.
    U.S. Commander General Nicholson says he now has what he 
needs to assist Afghans in achieving a sustainable outcome for 
Afghanistan and the region. The new conditions-based approach 
provides Afghans, our allies, as well as the Taliban a clear 
signal of American commitment as the National Unity Government 
pursues critical reform in self-reliance efforts.
    This administration has also rightly drawn a clear line 
with Pakistan, suspending security assistance of over a billion 
as long as Islamabad continues to shelter Haqqani and other 
terror groups that target innocent civilians as well as U.S. 
and allied forces. This more pointed approach is designed to 
confront Pakistan's duplicity and its actions to provide safe 
harbor to the greatest threat to our efforts in Afghanistan.
    The administration has also prioritized a broad diplomatic 
effort as key to stable, sustainable, and a self-governing 
Afghanistan that is at peace with its neighbors. I am pleased 
to hear that Deputy Secretary Sullivan and General Votel were 
recently in Kabul showing our resolve in the face of four 
deadly attacks, two attributed to the Haqqanis and two 
attributed to ISIS Khorasan. These attacks highlight the deadly 
threats that remain, and we must counteract them with a far 
more unified international community. While President Trump and 
President Ghani have stated that these attacks may preclude a 
peace process with the Taliban at the moment, it is incumbent 
upon us to be ready when that moment occurs.
    I welcome our witnesses and hope to hear more specifics of 
this strategy, especially in the area of economic and personal 
diplomacy in order to make the most of military gains General 
Nicholson projects.
    With that, I will turn to our distinguished ranking member, 
Ben Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman. I very much 
appreciate this hearing on Afghanistan so we can hear from the 
administration its strategies in regards to Afghanistan, moving 
forward.
    We have two very distinguished witnesses. And I, Secretary 
Schriver, particularly appreciate the fact that the Department 
of Defense is present, represented here today. As you know, 
during the Syria hearings, we were unable to get a 
representative from the Department of Defense. And I think that 
was unfortunate. And we still have not had a classified 
briefing on the U.S. troop presence, moving forward, in Syria. 
And I hope that will take place.
    Afghanistan, 16 years of U.S. combat in Afghanistan, 
significant U.S. investment of our--blood and treasure. And we 
are finding out that it is much harder to make peace than war, 
which is something that we always know is a challenge. All of 
us condemn the recent carnage that was caused by the insurgents 
and terrorists in the attack last month. And we very much are 
committed to ending the violence in Afghanistan.
    But, the question is, What is the U.S. policy as it relates 
to resolving long-term peace in Afghanistan? And, Mr. Chairman, 
I note President Trump's comment to the United Nations Security 
Council. And here, I think we are finding conflicting messages 
as to what the U.S. policy is in Afghanistan. The President 
said, ``We do not want to talk to the Taliban. We are going to 
finish what we have to finish. When nobody else has been able 
to finish, we are going to be able to do it.'' Well, that 
raises the question as to whether the President believes that 
this is a military-only operation, which I certainly disagree 
with.
    I notice that, one day after the President's remarks, our 
witness, Secretary Sullivan, said that, ``The strategy is to 
convince the Taliban or significant elements of the Taliban 
that there is not a military solution to the security situation 
here, that ultimately the peace and security of Afghanistan 
will be determined by peace talks.''
    Mr. Secretary, I agree with that comment. I think that is 
where our strategy should be. But, the question is, is it clear 
to our stakeholders, globally, what the U.S. policy is in 
Afghanistan? Does the administration really believe that a 
simple suspension--excuse me--do we have a clear message as to 
what the U.S. policy is in regards to our partners in that 
region? And I hope we will have a chance to talk about that 
today.
    I want to hear, as I mentioned to you before coming into 
the chamber--I want to review here today our regional efforts 
in regards to Pakistan and how that impacts on our strategies 
in Afghanistan. Does the administration really believe that a 
simple suspension of security assistance is going to bring 
about a lasting commitment by Pakistan to drop support for the 
Afghan Taliban or the Haqqani Network? It has not before. We 
have tried it several times over the past 16 years. I have 
little confidence that such behavioral change is coming. So, 
are we prepared to do more to elicit the behavioral change we 
want, or is this just more about the same?
    Assistant Secretary Schriver, I also hope you can give us a 
clear, detailed sense of the military conflict on the ground. I 
understand that much of the U.S. military strategy has focused 
on supporting Afghan Security Forces efforts to protect 
population centers. Judging from the devastating recent attacks 
in Kabul, something clearly is not working. We see that the 
Taliban contests or control an increasing swatch of the Afghan 
territory. It competes with ISIS for influence, leading to more 
and more brutal attacks. By any standard, the current security 
situation is grim.
    The bottom line is, the administration consistently says 
that it has a condition-based strategy, contrasted with the 
approach taken by the Obama administration, but the 
administration has yet to articulate with any precision what 
those conditions are. What is the end state that the U.S. and 
NATO troops are fighting for? We have been there 16 years. 
Should the American people simply accept that this is, indeed, 
a forever war? To me, the answer is clear and resounding no. 
There is no military solution to the conflict in Afghanistan.
    Last year, I introduced legislation that would boast U.S. 
diplomatic and programmatic engagement on a peace process as 
well on hard work of pursuing justice for wartime atrocities 
and accountability for human rights abuses and corruption by 
Afghan officials that continue to undermine the peace process. 
I stand ready, as I think members of this committee do, to work 
with the administration so that we have a clear policy for an 
end game in Afghanistan that can bring stability to the people 
of Afghanistan, allow our troops to come home, and really 
achieve, I hope, which is our objective.
    The Chairman. Thank you for those comments.
    With that, I would like to recognize our distinguished 
witnesses today. Our first witness is The Honorable John 
Sullivan, the Deputy Secretary of State. Our second witness is 
The Honorable Randall Schriver, Assistant Secretary of Defense 
for Asian and Pacific Security Affairs.
    Thank you both for being here. We appreciate it. It is a 
timely hearing. If you could keep your comments to around 5 
minutes, that would be great. Any written testimony you have, 
without objection, will be entered into the record.
    And, with that, Secretary Sullivan, if you would begin, we 
would appreciate it.

 STATEMENT OF HON. JOHN J. SULLIVAN, DEPUTY SECRETARY, UNITED 
           STATES DEPARTMENT OF STATE, WASHINGTON, DC

    Mr. Sullivan. Thank you, Mr. Chairman. Good morning. Good 
morning, Ranking Member Cardin, members of the committee. Thank 
you for inviting me here today to provide an update on the 
administration's South Asia policy, particularly as it applies 
to Afghanistan.
    I want to begin by offering my thoughts on Afghanistan in 
light of my trip to Kabul last week, and talk about how we are 
engaging, together with our partners across the interagency, in 
a regional approach in South Asia to bolster stability in the 
region, and in Afghanistan in particular.
    During my trip, I was, first and foremost, able to extend 
in person our condolences, thoughts, and prayers to the 
hundreds of victims and their families, all of those who were 
affected by the recent terrible acts of violent terrorism. The 
United States remains firmly committed to supporting the Afghan 
people and their government's efforts to achieve peace, 
security, and prosperity for their country.
    While in Kabul, I met with President Ghani, Chief Executive 
Abdullah, and other Afghan partners. Every leader reiterated 
their support for our strategy and their commitment to creating 
the conditions that will bring the Taliban to the negotiating 
table, as Senator Cardin mentioned in his opening remarks, 
thereby establishing an environment for sustained peace. These 
leaders also reaffirmed their support for the Afghanistan 
Compact, a series of benchmarks established by the Afghans to 
implement reforms in security, governance, rule of law, 
economic development, and peace and reconciliation. President 
Ghani and I co-chaired an executive committee meeting of the 
Compact, where we reviewed and highlighted progress on those 
benchmarks.
    I also discussed with the Afghan leadership the critical 
importance of timely, credible, and transparent elections. It 
is vital that parliamentary and presidential elections take 
place this year and next, respectively, and that they reflect 
the will of the Afghan people and create an inclusive 
government that continues to implement these fundamental 
reforms.
    In addition to shifting to a conditions-based approach 
instead of one predicated on arbitrary timelines, the South 
Asia strategy marks a change from the status quo in U.S.-
Pakistan relations. We intend to hold Pakistan accountable for 
its failure to deny sanctuary to militant proxies. We also 
encourage restraint in Pakistan's military, nuclear, and 
missiles programs, and seek continued closer alignment of 
Pakistan's nonproliferation policies with our own.
    We continue to value our relationship with Pakistan, and 
recognize the benefit of cooperation. Pakistan has played an 
important role in pushing al Qaeda closer to defeat, combating 
ISIS, securing its nuclear weapons, hosting Afghan refugees, 
and, importantly, providing access for supplies and equipment 
used by U.S. and Afghan forces. We also acknowledge the 
enormous sacrifices the Pakistani people and security forces 
have made to combat terrorism. We have shared with Pakistan our 
South Asia strategy in detail, and have made our expectations 
clear to Pakistan, emphasizing that they must take decisive 
action against all militant and terrorist groups based there.
    In January, the President suspended security assistance to 
the Pakistani military, with limited exceptions for programs 
that directly support U.S. national security interests, which 
would be decided on a case-by-case basis. We may consider 
lifting the suspension when we see decisive and sustained 
actions to address our concerns, including targeting all 
terrorist groups operating within its territory without 
distinction.
    The United States is committed to doing our part to reduce 
tensions in the region in ways that address Pakistan's 
legitimate concerns. To be clear, we oppose the use of 
terrorist proxies by any country against another country 
anywhere in the world. The use of terrorism has no place in a 
rules-based international system. We hope the Pakistanis will 
also help to convince the Taliban to enter into a peace 
process.
    We continue to deepen our strategic partnership with India. 
Secretary Tillerson traveled to New Delhi for consultations in 
October of 2017, and we expect to launch our inaugural ``two 
plus two'' dialogue with India in Washington this spring, when 
Secretary Tillerson and Secretary Mattis will meet with their 
Indian counterparts to further deepen our security ties.
    The United States and India share economic and humanitarian 
interests in Afghanistan. India has allocated more than $3 
billion in assistance to Afghanistan since 2001. India further 
strengthened ties with Afghanistan with the signing of a 
Development Partnership Agreement last year. We appreciate 
these contributions, and we look forward for more ways to work 
with India to promote economic growth and security in 
Afghanistan.
    The United States is also strengthening our partnerships 
with the Central Asian republics. We are committed to 
supporting their independence, territorial integrity and 
sovereignty, and fostering regional connectivity. Two weeks 
ago, I attended a C5+1--the ``C'' being the five Central Asian 
republics, plus the United States--in a discussion on 
Afghanistan at the United Nations Security Council, where we 
discussed our bilateral and multilateral efforts to support 
Afghanistan in enhanced Central Asian cooperation.
    Kazakhstan and Uzbekistan provide important logistical 
access for supplies and equipment used by U.S. and Afghan 
forces. These initiatives and others have helped the effort to 
build stability in Afghanistan and provide a better security 
and more economic opportunity for the people of Central Asia.
    Despite recent setbacks stemming from the horrific and 
senseless acts of violence we witnessed recently, the 
President's South Asia strategy is showing some signs of 
progress. On the battlefield, we are seeing the Taliban's 
momentum begin to slow. No major population center has fallen 
to the Taliban since its temporary occupation of Kunduz City in 
2015. Afghan forces are now on the offensive. Our allies and 
NATO partners, contributing more than 6,500 troops, are 
actively supporting our vision for a stable Afghanistan and a 
more prosperous South Asia.
    And in the Afghan government, we have a partner that is 
tackling economic, political, security, and governance 
challenges, including corruption, that have greatly hindered 
progress to date.
    Thank you. And I look forward to answering your questions.
    [The prepared statement of Mr. Sullivan follows:]

              Prepared Statement of Hon. John J. Sullivan

    Good morning, Mr. Chairman, Ranking Member Cardin, and members of 
the Committee. Thank you for inviting me here today to provide an 
update on the Administration's South Asia strategy.
    I want to begin by offering my thoughts on Afghanistan, in light of 
my trip to Kabul last week, and talk about how we are engaging, 
together with the interagency, in a regional approach in South Asia to 
bolster stability in the region.
    During my trip, I was first and foremost able to extend in person 
our condolences, thoughts, and prayers to the hundreds of victims and 
their families, and all those affected by the recent terrible acts of 
violence. The United States remains firmly committed to supporting the 
Afghan people and their government's efforts to achieve peace, 
security, and prosperity for their country.
    While in Kabul, I met with President Ghani, Chief Executive 
Abdullah, and other Afghan partners. Every leader reiterated their 
support for our strategy, and their commitment to creating the 
conditions that will bring the Taliban to the negotiating table and 
establish an environment for a sustained peace.
    These leaders also reaffirmed their support for the Afghanistan 
Compact--a series of reform benchmarks established by the Afghans--to 
implement reforms in the areas of security, governance, rule of law, 
economic development, and peace and reconciliation. President Ghani and 
I co-chaired an executive committee meeting of the Compact, where we 
reviewed and highlighted progress on those benchmarks.
    I also discussed with the Afghan leadership the critical importance 
of timely, credible, and transparent elections. It is vital that 
parliamentary and presidential elections take place this year and next, 
respectively, and that they reflect the will of the Afghan people and 
create an inclusive government that continues to implement these 
fundamental reforms.
    In addition to shifting to a conditions-based approach instead of 
one predicated on arbitrary timelines, the South Asia strategy marks a 
change from the status quo in U.S.-Pakistan relations. We intend to 
hold Pakistan accountable for its failure to deny sanctuary to militant 
proxies. We also encourage restraint in Pakistan's military nuclear and 
missile programs, and seek continued, closer alignment of Pakistan's 
nonproliferation policies with our own. We continue to value our 
relationship with Pakistan and recognize the benefits of cooperation.
    Pakistan has played an important role in pushing al-Qaida closer to 
defeat, combatting ISIS, securing its nuclear weapons, hosting Afghan 
refugees, and, importantly, providing access for supplies and equipment 
used by U.S. and Afghan forces. We also acknowledge the enormous 
sacrifices the Pakistani people and security forces have made to combat 
terrorism.
    We have shared with Pakistan our South Asia strategy in detail and 
have made our expectations clear to Pakistan, emphasizing that they 
must take decisive action against all militant and terrorist groups 
based there.
    In January, the President suspended security assistance to the 
Pakistani military, with limited exceptions for programs that directly 
support U.S. national security interests, on a case-by-case basis. We 
may consider lifting the suspension when we see decisive and sustained 
actions to address our concerns, including targeting all terrorist 
groups operating within its territory, without distinction.
    The United States is committed to doing our part to reduce tensions 
in the region in ways that address Pakistan's legitimate concerns. To 
be clear, we oppose the use of terrorist proxies by any country against 
another country, anywhere in the world. The use of terrorism has no 
place in a rules-based international system.
    We hope the Pakistanis will also help to convince the Taliban to 
enter a peace process.
    We continue to deepen our strategic partnership with India. 
Secretary Tillerson traveled to New Delhi for consultations in October 
2017, and we expect to launch our inaugural 2+2 dialogue with India in 
Washington this spring, when Secretary Tillerson and Secretary Mattis 
will meet with their Indian counterparts to further deepen our security 
ties.
    The United States and India share economic and humanitarian 
interests in Afghanistan. India has allocated more than $3 billion in 
assistance to Afghanistan since 2001. India further strengthened ties 
with Afghanistan with the signing of a Development Partnership 
Agreement last year. We appreciate these contributions and will 
continue to look for more ways to work with India to promote economic 
growth and stability in Afghanistan.
    The United States is also strengthening our partnerships with the 
Central Asian republics. We are committed to supporting their 
independence, territorial integrity, and sovereignty, and fostering 
regional connectivity. Just two weeks ago, I attended a C5+1 discussion 
on Afghanistan at the U.N. Security Council, where we discussed our 
bilateral and multilateral efforts to support Afghanistan and enhanced 
Central Asian cooperation.
    We value the Central Asian governments' support for increased 
stability in Afghanistan. Under the leadership of President Nazarbayev, 
Kazakhstan has provided education and training to hundreds of Afghan 
students and civilian experts. In December, Uzbek President Mirziyoyev 
hosted President Ghani in Tashkent, where they signed a number of 
important agreements to foster increased trade and cross-border 
connectivity.
    Kazakhstan and Uzbekistan provide important logistical access for 
supplies and equipment used by U.S. and Afghan forces. These 
initiatives and others have helped the effort to build stability in 
Afghanistan and have provided better security and more economic 
opportunity for the people of Central Asia.
    Despite recent setbacks stemming from horrific and senseless acts 
of violence, the President's South Asia strategy is showing some signs 
of progress.
    On the battlefield, we are seeing the Taliban's momentum begin to 
slow. No major population center has fallen to the Taliban since its 
temporary occupation of Kunduz city in 2015. Afghan forces are now on 
the offensive.
    Our allies and NATO partners--contributing more than 6,500 troops--
are actively supporting our vision for a stable Afghanistan and a more 
prosperous South Asia.
    And in the Afghan government, we have a strategic partner that is 
tackling economic, political, security, and governance challenges--
including corruption--that have greatly hindered progress to date.
    Thank you, and I look forward to your questions.

    The Chairman. Thank you very much.
    Secretary Schriver, thank you, sir.

  STATEMENT OF HON. RANDALL G. SCHRIVER, ASSISTANT SECRETARY, 
ASIAN AND PACIFIC SECURITY AFFAIRS, U.S. DEPARTMENT OF DEFENSE, 
                         WASHINGTON, DC

    Mr. Schriver. Thank you very much, Mr. Chairman, Ranking 
Member Cardin, and other distinguished members of the 
committee. I am thankful for the opportunity to give a DOD 
perspective on the implementation of our South Asia strategy.
    In August, the President announced our new integrated 
regional strategy, and this strategy was developed to address 
the enduring interests we have in South Asia, and in 
Afghanistan in particular. South Asia is home to two nuclear-
armed countries. It is also home to the highest concentration 
of U.S.-designated foreign terrorist groups. So, we have 
enduring interests there.
    Our strategy emphasizes regional cooperation to reduce the 
threat of terrorism, reduce the threat and possibility of 
nuclear conflict, and to put pressure on the Taliban and other 
parties to seek reconciliation. We are in Afghanistan, and we 
remain engaged with Pakistan to protect Americans, to protect 
our homeland, and to ensure there are no safe havens from which 
terrorists can plan and operate and to support attacks. Our 
strategy focuses on the region as a whole, and shifts from a 
time-based approach to a conditions-on-the-ground approach, and 
promotes political settlement.
    Regarding Afghanistan, we focus on four key pillars, known 
as the so-called ``four Rs'': regionalization, reinforcement, 
realignment, and reconciliation. Let me briefly update you on 
each.
    Regionalization focuses on expanding burden-sharing, 
neutralizing potential spoilers, and creating the conditions 
for durable political solutions. As the Deputy Secretary noted, 
I would also note we are pleased with India's role in this 
regard, and their decision to increase economic and 
humanitarian aid to Afghanistan. As he also noted, we have 
shifted our approach on Pakistan. They are an important 
partner, and they are absolutely key to our strategy 
succeeding.
    During Secretary Mattis's trip at the end of last year to 
Pakistan, he made clear that we appreciate the sacrifices they 
have made on the war on terror, our interest in continuing to 
partner with them, but he also made clear that we must see a 
change in Pakistan's behavior in particular areas where we have 
great concerns.
    Reinforcement involves improving the Afghanistan National 
Defense and Security Force capabilities and their 
effectiveness. We do so by providing advisory support and 
tailored equipment and training, and assistance in expanding 
the size and reach of the more high-performing forces, the 
special forces, of Afghanistan. We also do this by assisting in 
areas where they lack key capabilities, such as in aviation and 
intelligence.
    NATO and coalition partner uplifts are underway and will 
continue through 2018, and our own uplift is underway. U.S. and 
NATO will seek increased Afghanistan control of population 
centers, a reduction of violence, increased capabilities of 
Afghan special forces, and an increase to the independence of 
ANSDF operations.
    Simultaneously, we are realigning U.S. military and 
civilian assistance to coincide with our overall objectives and 
our strategy. Major realignment initiatives include adjustments 
to our train-advise-and-assist authorities, seeking to improve 
the lethality and unity of effort within the Afghan Security 
Forces, and shift lethal and nonlethal resources outside of 
Afghanistan into theater. There is an ambitious roadmap for the 
Afghan Security Forces, as defined by leadership in Kabul. They 
seek to double the size of their special forces and modernize 
their air force, which we are contributing to and which we are 
helping them with.
    Next steps will include the deployment of U.S. Security 
Assistance Brigades into the existing train-advise-and-assist 
structure, and we will continue to evaluate and determine how 
those efforts, particularly contributing at lower levels, more 
tactical levels, impact the effectiveness of Afghan Security 
Forces.
    Reconciliation does remain our overarching objective. We 
seek to drive the Taliban to an understanding that they will 
not achieve their goals on the battlefield or through violence. 
To do so, we will continue to support the Afghan Security 
Forces on the battlefield to shape the choices of the Taliban 
and any other opponents of the government. We seek to drive all 
the parties to a political settlement that ends the conflict, 
reduces violence, and denies safe haven for terrorists.
    Thank you, and look forward to any questions you may have.
    [The prepared statement of Mr. Schriver follows:]

               Prepared Statement of Hon. Randall Schriver

    Good morning Mr. Chairman, Ranking Member Cardin, and members of 
the committee. Thank you for this opportunity to update you on the work 
currently underway by the Department of Defense to implement the South 
Asia Strategy. While still new to this portfolio, it is clear to me 
that the Pentagon is working diligently and in close coordination with 
our interagency partners to implement this strategy, which is already 
yielding important results.
    Before I detail the Department's efforts, allow me to recall the 
strategic aims of this strategy, and why we remain in Afghanistan. 
South Asia is home to two nuclear-armed powers and to the highest 
concentration of U.S.-designated foreign terrorist groups in the world. 
On August 21, President Trump announced a new, integrated regional 
strategy for South Asia. As you are aware, this new strategy focuses 
primarily on the challenges in Afghanistan and Pakistan, but recognizes 
that addressing these challenges effectively requires a broader 
regional approach. It seeks to discourage hedging behavior by regional 
states, puts pressure on the Taliban to join a peace process, and 
emphasizes the importance of regional cooperation to reduce the threat 
of terrorism and nuclear conflict. We are in Afghanistan to make 
America safer, to protect our citizens, and to ensure that Afghanistan 
and Pakistan do not serve as safe havens from which terrorists can 
support and launch attacks against our homeland, American citizens, and 
our allies. Now, more than ever, the United States ' vision and 
leadership must remain clear and steady.
    The strategy seeks to deliver greater stability in the region by 
focusing on the region as a whole, and shifting from a time-based 
approach to one based on conditions on the ground in Afghanistan. It is 
important that we send a strong message to all actors that the United 
States remains committed to the continued development of the Afghan 
security forces, and that we are focused on promoting a political 
settlement that protects the interests of the United States, 
Afghanistan, and our international partners.
    We are focusing the Afghanistan portion of the South Asia Strategy 
on four key pillars: 1) regionalization aimed at enlisting the support 
of regional actors and enhancing overall regional stability; 2) 
reinforcement of Afghan National Defense and Security Forces (ANDSF) 
capacity, capabilities and overall effectiveness; 3) realignment of 
U.S., coalition and Afghan resources; and 4) an Afghan-led peace 
process facilitating political settlement and reconciliation. All of 
these critical pillars of the strategy are complementary, mutually 
supportive, and designed to integrate through a political, fiscal, and 
military sustainable model.
    Regionalizing our approach will expand burden sharing, neutralize 
potential spoilers to U.S. efforts, limit threats to the United States 
and its allies, and develop and support a durable political settlement 
in Afghanistan. We are working closely with the State Department to 
ensure that regional partners and allies support our South Asia 
Strategy, and we are equally focused on minimizing malign influence in 
Afghanistan, particularly from Russia and Iran.
    We have asked regional partners to leverage their relationships 
with Afghanistan and Pakistan to reinforce our calls for broader 
cooperation between the two countries. We are also relying on regional 
partners, such as India, to increase their economic and humanitarian 
aid to Afghanistan. We have been very pleased with India's increase of 
non-lethal aid to Afghanistan, and continue to seek opportunities for 
burden sharing.
    Our South Asia Strategy also reflects a shift in the U.S. approach 
to Pakistan. Pakistan is a long-standing and important partner, with 
deep historical ties to the U.S., and is key to the success of the 
President's South Asia strategy. America's interests are clear: we must 
stop the resurgence of safe havens that enable terrorists to threaten 
America, we must encourage restraint in Pakistan's nuclear weapons 
program and prevent nuclear weapons and materials from falling into the 
hands of terrorists. We must also encourage India and Pakistan to 
address tensions, in order to reduce the risk of nuclear war.
    During Secretary of Defense Mattis's first trip to Pakistan in 
December, he engaged directly with Pakistani Chief of Army Staff Bajwa 
on the objectives of the South Asia Strategy.
    Secretary Mattis underscored that the United States appreciates 
Pakistan's significant sacrifices in the war against terrorism, and 
that Pakistan can play a vital role in working with the United States 
and others to facilitate a peace process in Afghanistan. He also 
stressed that we must see a change in Pakistan's behavior in the areas 
of greatest concern to the United States.
    Since the announcement of the South Asia Strategy in August, 
Pakistan has taken some positive steps. The steps to date, however, do 
not reflect the type of decisive action that is necessary to restore 
regional stability. We continue to call on Pakistan to take decisive, 
sustained action against terrorist safe havens on its soil. DoD will 
continue to press Pakistan to make positive changes in its approach, 
and will provide clear and consistent feedback in response to Pakistani 
action or inaction. DoD wants to ensure that Pakistan has a ``bridge 
back'' to enhanced cooperation if it takes decisive action on U.S. 
requests.
    Reinforcement involves improving the ANDSF's capabilities and 
effectiveness. Our goal is to increase ANDSF operational capabilities 
and expand their operational reach by providing advisory support and 
tailored equipment and training. We are focusing our efforts on areas 
where they lack key capabilities, such as aviation and intelligence. We 
will also expand the size and reach of high-performing organizations 
such as the Afghan Special Operations Forces. While NATO and Coalition 
partner uplifts will occur throughout 2018, the U.S. uplift is already 
well underway.
    We expect progress to accelerate over the coming year, as senior 
DoD leaders engage with regional partners, enablers transition from 
Operation Inherent Resolve to Afghanistan, Afghan special forces 
recruiting and training increase, and the Afghan Air Force modernizes. 
DoD is evaluating ANDSF progress consistent with the Afghanistan 
Compact. The U.S.-NATO Coalition seeks increased Afghan government 
control of population centers, lines of communication, and key terrain; 
marked reduction in violence; dramatic increase in defense capabilities 
with Afghan Special Forces growth; and an increase in effective 
independent ANDSF operations.
    We are simultaneously realigning U.S. military and civilian 
assistance and political outreach to target key areas under Afghan 
government control to coincide with our overall objectives. The 
majority of measures to realign authorities, resources, and the ANDSF 
are progressing on schedule.
    Our major realignment initiatives include adjustments to 
operational and Train, Advise, Assist (TAA) authorities; reorganization 
of portions of the ANDSF to improve lethality and unity of effort; and 
shifting lethal and non-lethal resources from outside of Afghanistan 
into theater. The ANDSF Roadmap is an ambitious plan to reform and 
improve the Afghan security forces; it includes doubling the size of 
Afghan Special Forces, a modernization of the Afghan Air Force and 
transitioning it from Russian-made to U.S.-made aircraft, transitioning 
control of border and civil order police forces to the Ministry of 
Defense, and improving leader development through mandatory retirements 
and merit-based promotions.
    Our next steps will include the deployment of the U.S. Security 
Force Assistance Brigade into the existing TAA structure and 
determining how TAA efforts at lower levels impact ANDSF effectiveness. 
We will continue to monitor and evaluate the progress of the ANDSF 
Roadmap initiatives, and evaluate the effectiveness of an Afghan 
National Army- Territorial Force pilot program.
    The objective of the South Asia Strategy is a political settlement 
and reconciliation in Afghanistan. We seek to drive all major parties, 
including the Taliban, towards a political settlement in Afghanistan 
that ends the conflict, reduces violence, and denies safe haven to 
terrorist organizations. We will do everything we can to support the 
ANDSF fight against the Taliban in order to drive them to the 
negotiating table. Fundamentally, our goal is to convince the Taliban's 
senior leadership that its goals are better pursued through political 
negotiation rather than violence. We remain committed to working with 
all parties, including regional partners, to forge a durable and 
inclusive settlement to the war in Afghanistan.

    The Chairman. Thank you.
    Senator Cardin.
    Senator Cardin. Again, thank you both for your testimony.
    Secretary Schriver, let me just start with you for a 
moment, if I might. And that is, a good part of the U.S. 
engagement in Afghanistan is to maintain the confidence of the 
people, that we are there in an interest at having a government 
that will protect the rights of all of its people. There have 
been some reported cases that involve the behavior--involving 
Afghan Security Forces and children--that would--that--it has 
been reported that U.S. soldiers witnessed, but said it would 
best to be leave it alone rather than reporting this 
misconduct. Do we have a very clear policy among our military 
that the United States has a responsibility to make sure that 
there is accountability, including the forces that we are 
working with, to report any abuse of human rights, to make sure 
that the accountabilities for atrocities are ensured, whether 
they be the terrorist groups or the Afghan forces?
    Mr. Schriver. We do. We certainly reject any of that kind 
of behavior, and would seek to address that. We welcome any 
scrutiny that reveals that, including reporting by our forces. 
And, certainly, we have seen the same kind of reporting, and 
word has been delivered to our forces that they have a 
responsibility to report this kind of activity, should they see 
it.
    Senator Cardin. It is clearly important. And we have had 
this conversation with the--with Secretary Sullivan and the 
State Department--that part of the healing process in 
Afghanistan is accountability for those who have committed 
gross violations of human rights, whether they are, again, the 
insurgents, terrorists, or whether they are by local forces. I 
take it, Mr. Secretary, that that is still the policy of the 
United States on accountability as part of a settlement of what 
is going on in Afghanistan?
    Mr. Sullivan. Emphatically so, Senator. And what--we bring 
it up repeatedly with our partners in the Afghan government. 
And I did, during my visits in Kabul last week with President 
Ghani and his cabinet.
    Senator Cardin. Would you just briefly review with us the 
status of the opportunities for regional diplomacy and whether 
the United States will be participating in the meetings in the 
Kabul process that are scheduled to take place, I think, later 
this month?
    Mr. Sullivan. Yes, Senator. There are a number of 
opportunities. There is the Kabul process. Following that, 
there will be a conference in Tashkent, Uzbekistan, sponsored 
by the Uzbek government, in coordination with the Afghan 
government.
    Senator Cardin. And who will represent the United States at 
those meetings?
    Mr. Sullivan. The United States will be represented. I do 
not know whether that has been determined yet. I might be the 
representative, but it will be a senior-level U.S. Government 
representative participating.
    Senator Cardin. So, let us talk a little bit about 
Pakistan. What is the strategy, here? Have we seen any change 
in behavior, positive for the United States, as a result of the 
announced policies on international aid?
    Mr. Sullivan. There certainly has not been any change that 
was--that we would consider final and irrevocable. We have had 
a number of discussions with our Pakistani partners on 
expectations for change and expelling terrorists from areas in 
which they have been allowed to operate. They understand what 
we expect. Our suspension of security assistance continues 
until we see more evidence that they are, in fact, taking 
action. So, they have engaged in discussions with us, but there 
has not been a sufficient amount of action yet, such that we 
would be lifting that suspension of security assistance.
    Senator Cardin. So, drill down just a little bit more. What 
is our objective in regards to the Taliban, as far as their 
participation in the peace process? The role the U.S. plays, 
the role Pakistan plays, the role Afghanistan plays. How does 
that come about? What is the diplomacy that brings about a 
meaningful process that can lead to peace?
    Mr. Sullivan. Well, we have engaged in discussions with 
the--with both the government--the governments in Kabul and 
Islamabad, on the need for a peace process to resolve the 
security situation in Afghanistan.
    Senator Cardin. Including the Taliban.
    Mr. Sullivan. Including the Taliban. What we have not seen, 
however, is any inclination from at least significant elements 
of the Taliban that are still engaging in horrific acts of 
terrorist violence, as we saw last month in Kabul. So, everyone 
else seems willing to engage in a discussion at a peace 
conference, except those elements of the Taliban who are 
engaged in killing innocent men and women and children in 
Kabul.
    Senator Cardin. And just one last question. The common 
perception is that Pakistan is not doing enough to change that 
equation. Is that your assessment?
    Mr. Sullivan. Certainly our assessment that Pakistan has 
not done enough to expel elements of the Taliban that have been 
operating in sanctuaries in Pakistan and able to cross the 
border.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Okay.
    Senator Young.
    Senator Young. Thank you, Mr. Chairman.
    And welcome, gentlemen.
    Assistant Secretary Schriver, in your prepared statement, 
you discuss the effort to help the Afghan Security Forces to 
become more capable and effective. As part of that, you touch 
on the effort to transition Afghan forces from Russian-made to 
U.S.-made aircraft. And I support that effort. Helping the 
Afghans transfer to U.S.-made equipment will provide them 
superior capability, more effective lifecycle sustainment of 
equipment, and increased interoperability with our own forces.
    Secretary Schriver, you agree that a transition to U.S. 
equipment will yield those benefits for our Afghan partners and 
for the United States?
    Mr. Schriver. We believe it will. And it is an important 
part of our approach.
    Senator Young. Well, I am glad to hear you say that. It is 
a happy coincidence that a transition to U.S. equipment will 
also provide benefits to U.S. workers. It is certainly true for 
my own constituents in the State of Indiana. In the northern 
part of my State, we are proudly building thousands of new 
Humvees for the Afghan Security Forces. My constituents, of 
course, take great pride in that work, knowing that a more 
capable and a better-protected Afghan Security Force means a 
safer America, as well. Our Afghan partners should not have to 
ride in combat against terrorists in thin-skinned pickup 
trucks, which is what some are having to do.
    So, Secretary Schriver and Secretary Sullivan, please 
consider me an ally in the effort to facilitate a transition to 
U.S. equipment for the Afghan Security Forces, and let me know 
how I can help.
    Secretary Sullivan, on a quick but important note, I want 
to thank you and your Department for your assistance related to 
some Ethiopian adoptions we have been trying to consummate. 
This has been very important to a number of families in my own 
State, and I have received a specific and unequivocal 
commitment from the new Ethiopian Ambassador, you should know, 
related to certain cases that are still in the pipeline. So, I 
am hopeful and optimistic that the new Ambassador will honor 
his commitment to me regarding these specific cases. I wanted 
to publicly articulate my hopefulness in that regard, and my 
gratitude to your Department.
    If, for some reason, this commitment is not honored, I may 
need to request your assistance once again. Can we have that 
conversation in the coming week or two, depending on the answer 
I get from the Ethiopian government, sir?
    Mr. Sullivan. Of course, Senator. We have had this 
conversation about this issue, going back almost a year now. 
And we are aware of recent developments in Ethiopia with 
respect adoptions and the need for special treatment for those 
cases that are already pending. And I would be happy to discuss 
that with you further.
    Senator Young. Okay. Thank you so much.
    Lastly, I would like to turn to the so-called Afghanistan 
Compact. I applaud the administration for shifting to a 
conditions-based, rather than a calendar-based, approach to the 
military campaign in Afghanistan. Our national security 
interests and objectives, the situation on the ground, and the 
advice of our diplomats and military leaders should guide our 
force posture in Afghanistan.
    However, military progress is necessary, but not 
sufficient. If we do not see progress in governance, rule of 
law, and development, any military gains will not be 
sustainable, and those military gains will not lead to durable 
attainment of our objectives in Afghanistan. This is what our 
National Security Advisor often calls ``the need to consolidate 
our gains around the world.''
    Secretary Sullivan, in your prepared testimony, you 
mentioned the Afghanistan Compact, a series of reform 
benchmarks established by the Afghans to implement reforms in 
the areas of security, governments, rule of law, economic 
development, and peace and reconciliation. According to a 
statement by our Embassy in Kabul last August, this Compact 
sets more than 200 benchmarks. Secretary Sullivan, you also 
write in your prepared testimony that, during your trip to 
Afghanistan last week, you reviewed and highlighted progress on 
those benchmarks. Ambassador Bass testified, last September, 
that the Afghan government has asked us to hold them 
accountable to these commitments.
    Secretary Sullivan, where is the Afghan government falling 
short of these Afghanistan Compact benchmarks? And what is 
being done to address these shortcomings?
    Mr. Sullivan. The principal focus of our meetings last 
week--Ambassador Bass and I met with President Ghani and with 
his cabinet--that it is a--the executive committee that forms 
the so-called Compact--our focus last week was on corruption 
and anticorruption efforts. The Afghans have adopted a legal 
structure, which we applaud and we have supported. Where we 
need to see more action is on follow-through on cases that are 
brought under the legal regime that has been adopted. They have 
adopted an office to prosecute corruption cases, but we need to 
see that office and those legal remedies actually employed. 
There have been some cases brought, but I pointed out that 
there really had not been as many as we would have expected, 
given the scope of the problem.
    Senator Young. And, Mr. Secretary, you always strike me, 
every time you are before this committee, as so forthright and 
forthcoming. And I thank you for that. What I really think we 
need is more detail as a committee so we can fulfill our 
Article I oversight responsibility. So, do you commit to 
providing to this committee a list of the Afghanistan Compact 
benchmarks and a detailed, specific, and written assessment of 
where the Afghan government is falling short on these 
commitments, and how Kabul, with our help, presumably plans to 
address these shortcomings?
    Mr. Sullivan. I do, Senator. I welcome it. Thank you.

    [The information referred to above, ``List of Afghanistan Compact 
Benchmarks,'' is located at the end of the hearing, beginning on page 
49.]

    Senator Young. Okay, thank you.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both for being here.
    Mr. Schriver, I am especially pleased to see you here, as 
someone from DOD. I think it is important for us to understand 
how State and DOD are working in conjunction on issues like 
Afghanistan.
    Having said that, there are some measures that suggest that 
the Taliban are now in control of or contesting more territory 
today than at any point since 2001. And you all have both 
referred to the horrific terrorist attacks that killed so many 
Afghans in recent weeks. So, I am trying to better understand 
how this strategy is going to move Afghanistan forward.
    President Trump declared, in August of last year, that 
America is not nation-building again. And so, I am not clear 
what exactly that means, because, like Senator Young, I share 
the concern that governance is as big, if not bigger, issue in 
Afghanistan than the military situation. So, if we are not 
nation-building, does this mean that we are less committed to 
human rights, to fighting corruption, to promoting good 
governance? What exactly does that mean? I guess this is for 
you, Mr. Sullivan.
    Mr. Sullivan. The United States is committed to supporting 
an Afghan-led process that develops a government that is 
suitable for the Afghan people, and acceptable to them. We are 
not going to dictate the terms of either a peace settlement 
between the Afghan government and the Taliban, for example. 
What our--we have certain irreducible benchmarks for a basic 
stability in the country so that--for example, you mentioned 
Taliban-controlled areas--where the Taliban controls an area, 
there is massively increased drug cultivation and production, 
decrease in security, has a dramatic effect on the Afghan 
economy. So, we want to have a stable Afghanistan that is not a 
base for terrorism, as Secretary Schriver said, and then one 
that respects the Afghan constitution, which includes 
protections for women. Those are our basic--those are our 
irreducible basic thresholds for a resolution of our engagement 
in Afghanistan.
    Senator Shaheen. And we are continuing to support the 
Afghan efforts, both with personnel and with resources?
    Mr. Sullivan. Yes, we are. I met with General Nicholson 
when I was there last week, and Secretary Schriver can go into 
greater detail. We are providing, both our--through our--with 
our NATO partners and U.S. military, support for Afghan 
Security Forces--army, police--a particular focus now with 
security in Kabul, in developing a security force in Kabul to 
prevent the types of violent terrorist acts that we saw last 
month.
    Senator Shaheen. Good.
    On Pakistan, do we really believe that Pakistan has the 
ability to convince the Taliban to go to the negotiating table, 
as you suggested in your testimony?
    Mr. Sullivan. They certainly have the ability to urge the 
Taliban to do so. What we believe they do have the ability to 
do also is to expel them from sanctuaries in their country. 
They may not be able to actually drive them to the negotiating 
table, but they can help, and they can eliminate sanctuaries in 
their country where they currently operate.
    Senator Shaheen. They have--and I am not trying to make 
excuses for Pakistan, but they have, over a period of time, 
lost thousands of Pakistanis in the effort to throw the Taliban 
out--and other terrorist groups--out of their territory. With 
some success, but not entire success. And there has been a 
suggestion, over the years, that one of the challenges with the 
Haqqani Network is their ties to ISI and whether the government 
would be able to withstand an effort to remove the Haqqani 
Network because of the potential to create instability within 
the government. Do we believe that to be true? And, if so, how 
are--how is our Pakistan strategy accommodating that concern?
    Mr. Sullivan. Well, we certainly understand the challenges 
that the--that Pakistan faces with these terrorist 
organizations within their borders, some of them directed at 
Pakistan itself, others directed at other countries in the 
region--Afghanistan, India, elsewhere. Pakistan has suffered 
grievously from terrorist attacks, as we all know and as I 
cited in my testimony. What we are looking for from Pakistan is 
more support from them against terrorist organizations that are 
outward-focused, in addition to their focus, the--Pakistan's 
government's efforts against terrorist organizations that 
threaten Pakistan. I understand it is a delicate balance for 
Pakistan. We want to do all we can to support them in that 
effort. And we have provided an enormous amount of assistance, 
monetary and otherwise, to the Pakistani government. What we 
are looking for is an indication from them, more support 
directed at those outward-focused terrorist organizations.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Part of our new strategy calls for economic--calls for 
integration of diplomatic and economic assets into our military 
effort. That sounds a little bit like Provincial Reconstruction 
Teams that we did in Iraq for a while. Is that part of the goal 
in any way whatsoever? And I will further--I will just 
elaborate on that a little bit.
    In Iraq, when we tried to bring over more of the Iraqi 
people to our side, versus the terrorist side or the Hussein 
side, we created Provincial Reconstruction Teams that used our 
military folks--in fact, in Gazaria, I was there with them 
personally when they did that--to make micro loans and things 
like to help them build the local businesses and investment in 
them, as well as other participation like that with the State 
Department. Is anything like that being contemplated in 
Afghanistan?
    Mr. Schriver. I think the idea of integrating our approach 
is to try to achieve that same synergy of economic assistance 
and other support, along with the military campaign. So, 
although it is structured somewhat differently, in terms of the 
campaign, the best practices, lessons learned I think can still 
be applied when we ensure we are knitted up as two departments 
in our overall efforts.
    Senator Isakson. Secretary Schriver, you made a very 
interesting comment in your verbal statement. I did not read 
your prepared statement, so it may be in there, as well. But, 
you said we are moving from measurement of accomplishment and 
not time. Is that correct? When we measure our success?
    Mr. Schriver. Yes, sir. Conditions-based.
    Senator Isakson. Yeah. And that said to me a world of good, 
because when you use time, you say, ``We are going to stay 
there til X time, and then we are gone.'' And we dealt with 
that, the last administration, for a long time, and we kind of 
protracted our investment in the country.
    Now, by measuring accomplishment, we can actually see what 
we are doing to accomplish the ultimate goal, which is 
independence, regional cooperation, and hopefully a lessening 
dependence on terrorism and the Taliban and people like that.
    Mr. Sullivan, is the Afghan Compact one of those benchmark 
measurements we are going to use to measure our accomplishments 
in Afghanistan?
    Mr. Sullivan. Yes, it is, Senator. In fact, as Senator 
Young mentioned, it has got a number of--within it, the Compact 
has a number of measurements--benchmark measurements for 
corruption, economic development, et cetera, that we will use 
to measure the progress of the Afghan government.
    Senator Isakson. What do you see as the consequences for 
not reaching those benchmarks, for the players involved?
    Mr. Sullivan. Well, ultimately, for the players involved, 
for the Afghan government, it is the success of their effort to 
govern their country, to govern effectively, to have a 
democracy in Afghanistan, to eliminate corruption, to promote 
the rule of law, to develop the economy. It is in the Afghans' 
self-interest to meet those benchmarks. And they, themselves, 
have adopted those benchmarks, and advocate for them.
    Senator Isakson. This Thursday at Fort Benning, we are 
standing up a group--and I understand General Mattis is going 
to be there, or he just made that announcement today at the--
before Armed Services Committee--a Security Forces Assistance 
Brigade at Fort Benning that will be going to Afghanistan, I 
think March the 1st. That is a significant commitment. My State 
of Georgia, with Fort Benning, with Robins, with so many--with 
Fort Stewart, with the investment we have in manpower and 
materiel going to Afghanistan, the--our success is a huge thing 
that is looked forward to by the people in my State. What are 
these--what is this group that is going to go from Georgia, 
come March 1st--what is it going to add to our effort in 
Afghanistan? And what are we going to look for them to achieve?
    Mr. Schriver. Our goal, Senator, is to integrate those 
brigades into the train-advise-and-assist structure and the 
mission, which is to ultimately create a more lethal and 
effective Afghan Security Force, as well as provide some key 
capabilities that are gaps for the Afghan forces currently. 
But, primarily, it is the train-advise-assist role that they 
will help with to improve the Afghan forces so, ultimately, 
they can operate more independently.
    Senator Isakson. And I sense we are making a bigger effort 
for training of Afghan troops and Afghan resources to--in their 
own fighting for themselves. Is that correct?
    Mr. Schriver. That is a major focus, yes, sir.
    Senator Isakson. Because in Moody Air Force Base in 
Valdosta, Georgia, we are trying to train the Afghan pilots 
now, under a three-year program of training, which is another 
investment we are making in training the Afghans to do for 
themselves what we, in the past, have been doing for them. That 
correct?
    Mr. Schriver. Yeah. The Air Force modernization is another 
key piece.
    Senator Isakson. Yeah.
    Mr. Schriver. And it includes not only American equipment, 
but the training piece so that they can provide that key 
enabler to their operations.
    Senator Isakson. Thank you both for what you are doing.
    The Chairman. Thank you.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman, for holding the 
hearing. It has been nearly a year and a half since the 
committee has held a hearing on the United States' longest war, 
so I appreciate the opportunity, and, to both of you, for your 
testimony.
    It is been nearly six months since the administration 
announced its new strategy for South Asia, which, as far as I 
can tell, is quite similar to the old strategy. I understand 
the administration is focused on conditions-based metrics for 
success and eventual withdrawal of U.S. forces, but I hope we 
can get a little more clarity to exactly what are our desired 
outcomes for our troops and for our foreign policy goals in 
Afghanistan.
    And, Secretary Sullivan, you--in your testimony and as well 
as in responses, you have talked about a number of meetings and 
consultations you have had during your tenure, but I have not 
heard about the role of USAID or our plans to support good 
governance structures or economic development, critical 
components of successful countries. Can--are we talking about, 
for example, a civilian surge, here, to try to create the good 
governance? I think some of the reasons the Taliban has some 
successes is because the central government is not as 
responsive to its people and its needs as it should be. So, can 
you speak to that?
    Mr. Sullivan. Sure. It--that is a very important component, 
Senator. I will give you some specific examples.
    USAID is providing support to the Afghan government to run 
their elections coming up in this year--parliamentary 
elections; presidential elections next year. My message to 
President Ghani, which he was receptive to and embraced, was 
how important it was that the Afghans consider their record of 
commitment to democracy, their--they have had a number of 
elections, some more successful than others, in the last 16 or 
17 years, but it is important that these elections go forward. 
USAID is providing support to the government. I met with the 
opposition political leaders, while I was there at the embassy, 
to talk to them about the importance of free and fair elections 
and the support that the United States Government, through 
USAID, was going to be providing toward that end.
    Senator Menendez. Let me ask you. Since your testimony says 
that elections are vital, what specific diplomatic, 
developmental, and governance tools through USAID and State are 
you willing to--or utilizing to support those? And what is the 
realistic timeframe for you to be part of delivering it through 
those entities?
    Mr. Sullivan. The timeframe is tight. We--the original 
schedule for parliamentary elections was this July. Based on my 
conversations in Kabul, that will likely slip to this fall, 
probably October. But, it cannot slip to next year. They have 
got to be done before the presidential elections.
    Senator Menendez. And what are we doing, in terms of----
    Mr. Sullivan. Specific----
    Senator Menendez. --resources?
    Mr. Sullivan. --support. For example, funding and providing 
advice on creating voter rolls and voter assistance, what we do 
here in the United States to support our elections, providing 
both advice and monetary assistance to the election commission 
both at the national level and at the provincial level so that 
the vote is fair and accurate.
    Senator Menendez. Let me ask you. Would you agree that the 
Taliban are able to build marginal support for some key 
constituents is largely due to their disillusionment and 
distrust of the central government in Kabul?
    Mr. Sullivan. Yeah, I think the Taliban is a broad term. 
There are elements of the Taliban that are more successful and 
more influential than others, and some have more of a political 
following than others. One of the strategies of President Ghani 
is in engaging the Taliban, to the extent that we can, in 
political discussions, is peeling off those elements of the 
Taliban that can be--where we can reconcile with, and then 
going after those elements of the Taliban that are, despite all 
of our efforts and entreaties, dedicated to violence and 
terrorism.
    Senator Menendez. Well, I say that, because, in 2014, I was 
pleased that the Senate passed the Afghanistan Accountability 
Act, which laid out a framework for the United States to work 
collaboratively with Afghan and international partners to 
implement meaningful reforms to promote accountability and 
transparency in the Afghan government. And I hope we can 
revisit the legislation and ensure the committee is effectively 
overseeing diplomatic and developmental efforts that the United 
States is making in Afghanistan, and ensure that we are 
supporting institutional reforms to safeguard governance 
structures. And I look forward to speaking to The Chairman 
about that opportunity.
    Let me just take one last moment. At our hearing on the 
2017 Trafficking-in-Persons Report, back in July, you offered 
to brief me on the Department's determinations regarding the 
Child Soldiers List. As I understand it, the Secretary decided 
to include a waiver for Afghanistan, despite the recommendation 
of his staff, knowing full well that Afghanistan employs child 
soldiers. You also offered to brief me on a written plan 
submitted by the Cuban government to become eligible for a 
waiver from a downgrade to Tier 3, and clarification of 
Malaysia's upgrade, despite clear statutory language directing 
otherwise.
    It has been nearly seven months since that hearing, and, 
despite repeated attempts from my office, and requests to 
follow on, we have received no information. So, can you commit 
yourself, after seven months, to give me the briefing you said 
you would give me and to provide the information you said you 
would provide?
    Mr. Sullivan. I apologize for that failure, Senator. I 
commit to that now. I was not aware of the request. But, I 
cannot blame anyone else than myself. I made those commitments, 
and I will follow up immediately.
    Senator Menendez. I appreciate that.
    Thank you, Mr. Chairman.


    [Deputy Secretary Sullivan's briefing with Senator Menendez took 
place in the Senator's office on Wednesday, March 7, 2018.]


    The Chairman. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Thank you both for your service.
    Secretary Schriver, I want to kind of go back to 
Secretary--or Senator Isakson's question about measuring 
accomplishments. I am the accountant on the panel here. I do 
not need exact numbers, but I want, you know, basically, your 
assessment of troop levels of our enemies. Where is the--you 
know, what is the number of members of the Taliban right now?
    Mr. Schriver. I am not sure I can give you a number that I 
have great confidence in.
    Senator Johnson. A ballpark. I mean, are we talking 
thousands, tens of thousands? Where are we at?
    Mr. Schriver. Yeah. I--in terms of actually dedicated 
fighters, with your permission, I would feel more comfortable 
taking the question, because there is--the Deputy Secretary 
said that there is different variations of Taliban, and they do 
have a tendency to melt away during nonfighting season. So, 
if--with your permission, I will take the question and----
    Senator Johnson. So, I----
    Mr. Schriver. --will provide you----
    Senator Johnson. I definitely want, you know, that kind of 
data.
    Mr. Schriver. Yes, sir.


    [Mr. Schriver's response to Senator Johnson's question is located 
at the end of this hearing transcript in the Responses to Additional 
Questions for the Record section, beginning on page 45.]


    Senator Johnson. What percent would you say are the 
terrorist element? You know, maybe this is for Secretary 
Sullivan. Is it ten percent? Is it a small percentage? I mean, 
is there a----
    Mr. Sullivan. I am sorry, Senator. What----
    Senator Johnson. What percentage of the Taliban would you 
consider the terrorist element versus those that we might be 
able to negotiate with?
    Mr. Sullivan. I would have to defer to my colleagues both 
at DOD and the intelligence committee--community on that.
    Senator Johnson. Okay. So, you can expect that, in terms of 
written questions for the record.
    Mr. Sullivan. Yes, Senator.
    Senator Johnson. The same--I would like--same assessment of 
the Haqqani Network. And--both. Before I move on, is your 
assessment that the force through Taliban is growing? Is it 
declining? Is it stabilizing?
    Mr. Schriver. I think we will have a better assessment of 
that when the traditional fighting season starts and we can see 
the impact on the battlefield of our new strategy. Again, there 
is different sort of variations of dedicated fighters and those 
that are supportive politically, ideologically, but not 
dedicated necessarily to picking up arms. So----
    Senator Johnson. Well, so what I am going to want is an 
assessment of what you thought the size--the troop level was, 
back 16 years ago, maybe 10 years ago. I mean, I kind of want a 
trend, here. I want to see what progress or lack of progress is 
being made against Taliban, Haqqani Network.
    And then let me ask about ISIS. Is that a growing presence? 
Do you have any assessment of how many ISIS fighters are now 
located in Afghanistan?
    Mr. Schriver. Again, we will get assistance from the 
intelligence community to give us better figures. I know there 
is concern, particularly about returning foreign fighters, 
given developments in Syria, Iraq. So, it is something that we 
are watching very carefully, and will provide you an 
assessment.


    [Senator Johnson's question was answered by Deputy Secretary 
Sullivan; the response is located at the end of this hearing transcript 
in the Responses to Additional Question for the Record section, 
beginning on page 45.]


    Senator Johnson. So, you mentioned--and I was going to go 
the--here next. What is, then, the change of strategy? There 
used to--we used to have the winter pause, they would kind of 
melt back in, we would kind of leave them alone. Can you 
describe in greater detail exactly what we are doing, as well 
as any change of rules of engagement?
    Mr. Schriver. Sure. From a U.S. military perspective, there 
are several elements. One is the uplift, the reinforce part of 
it. And key to that is the role that any additional forces 
would play. So, that relates to the realignment of resources, 
as well. We are involved in trying to increase the lethality 
and capability of the Afghan Security Forces. Part of that is 
an equipment provision, part of that is training, part of 
them--part of that is actually being an enabler to some of 
their operations. I think what we can say, in terms of another 
change, is the Afghan approach to the conflict, in addition to 
trying to hold gains, there is more offensive action, taking 
the fight to the Taliban. We are helping with that, to fill in 
some key capabilities as enablers.
    Ultimately, we want an Afghan force that can operate more 
independently and less reliant on the support of U.S. and NATO 
forces.
    Senator Johnson. But, is it safe to say we are keeping up 
the pressure even during the winter months, versus the last 
administration, where we eased off? Is that----
    Mr. Schriver. Well, the overall tempo is down, but the 
pressure and the operations do continue, to some extent, yes.
    Senator Johnson. Is that one of the reasons, Secretary 
Sullivan, that maybe we are seeing these terrorist attacks?
    Mr. Sullivan. Well, I just wanted to add to that. When I 
met with General Nicholson last week, particularly with respect 
to operations against ISIS, that those have continued, and, in 
fact, there have been, in recent days, significant operations 
ongoing. So, there is a fighting season, traditionally, in 
Afghanistan, but our operations in Afghanistan are trying to 
break that mold a little bit.
    Senator Johnson. Okay. Well, I have run out of time, but I 
will definitely be submitting those questions for the record.
    Thanks, Mr. Chairman.
    The Chairman. Thank you.
    Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Thank you both for being here. Appreciate your service.
    As has been mentioned, things are not going well today in 
Afghanistan. The U.S.-backed coalition controls less territory 
than ever before. Insurgents control more than ever before. A 
series of very high-profile attacks. And, at the foundation, I 
think, lies some pretty significant confusion about what U.S. 
policy is. And I want to explore, as Senator Shaheen did, a few 
of those areas.
    Maybe most significantly is this administration's position 
on the peace process, moving forward. I appreciated your 
answer, Secretary Sullivan, in response to Chairman Corker, 
that you believed--and I think you are representing the State 
Department's position--that there is a role for the Taliban in 
a peace process, going forward. Ambassador Haley mirrored that 
statement earlier this year.
    But, here is what the President of the United States said a 
week ago. And he was definitive. He said, quote, ``We do not 
want to talk with the Taliban. There may be a time, but it is 
going to be a long time.'' That seems to be in direct 
contradiction to the position that just articulated to this 
committee, that you believe, the State Department believes, 
there is room for the Taliban in those negotiations.
    So, you can see that the world, and those involved in the 
peace process, may be pretty confused about what the U.S. 
position is. What is it? Is it the position that you 
articulated before the committee, or is it the position that 
the President articulated a week ago?
    Mr. Sullivan. Well, I think the President's position--and I 
actually had the opportunity to speak with President Ghani 
shortly after the President--President Trump's statement. And I 
think President Ghani's view and President Trump's view are 
fairly well aligned. I think what President Trump was 
expressing was a reaction to the terrorist activities--the 
horrible terrorist activities last month in Kabul. Significant 
elements of the Taliban are not prepared to negotiate. And it 
may take a long time before they are willing to negotiate. That 
was the thrust, as I understand it, of the President's remarks. 
And that is certainly the view that President Ghani has. He is 
extremely upset about what happened, and he wants to take a 
very hard stance against those elements of the Taliban that 
slaughtered innocent men, women, and children on the streets of 
Kabul.
    Senator Murphy. I--but, you just said, in your response to 
Senator Corker, that you believe there is a role for the 
Taliban. The President did not put conditions on this. He said, 
``We do not want to talk with the Taliban.'' So, do we believe 
that they have a place in the negotiating table, or do they 
not?
    Mr. Sullivan. They do. I do not think that there is a place 
for the Taliban--for those elements of the Taliban that plotted 
those terrorist attacks last month, they are not showing an 
indication that they are willing to sit at the table. I think 
that is what the President was--the--that the--the sentiment 
that he was expressing.
    Senator Murphy. I understand you are in a very difficult 
position when the President adds no subtlety to these 
statements, but that is not what he said. He said, 
definitively, ``We do not want to talk with the Taliban.'' And 
you can understand that, when the President makes statements, 
they hold much more water than the statements that the 
Secretary may make. I think there are still enormous amounts 
of--I know there are enormous amounts of confusion over here. 
We have directly contradictory statements.
    Secretary Schriver, I want to talk to you a little bit 
about transparency. There were some disturbing reports recently 
that the Department of Defense limited a Special Inspector 
regarding information that they could make public. They were 
informed that they were not to release public data on the 
number of districts, the population living in them controlled 
or influenced by the Afghan government or by insurgents, or 
contested by both. This is following on instructions from the 
Department of Defense that the Special Inspector was not 
allowed to release numbers regarding losses by U.S.-backed 
Afghan forces. This is the first time that the Special 
Inspector has been told they cannot disclose information that 
was previously public and is not classified.
    I am very concerned that the Department of Defense is 
trying to pull the cover over data that we all use, including 
our constituents use, to try to understand what is happening in 
Afghanistan, given some really disturbing trend lines. This 
does not suggest that this administration wants to make sure 
that my constituents have enough information to make decisions, 
going forward.
    Can you speak to the limitations that have been placed on 
the Special Inspector's reports to Congress?
    Mr. Schriver. Well, we are going to work very closely with 
the Special Investigator to make sure that there is the 
transparency that you need, that I think we all benefit from. 
There are--there may be considerations in the future about 
operational security, the kinds of things that you do not want 
to telegraph to the enemy. But, I can tell you, our goal is to 
be transparent. We need the support of the people, we need the 
support of this committee and the Congress. And I think the way 
to do that is to be transparent and open. So, we will continue 
to work with the Special Investigator to achieve that.
    Senator Murphy. Why was SIGIR stopped from reporting losses 
for U.S.-backed Afghan government? They were unable to include 
the number of casualties among Afghan troops.
    Mr. Schriver. I think that there may be some 
misinformation. I think there was some information that SIGIR 
classified, themselves, and that may have been based on what 
information was provided by the Afghans and their own 
classification. But, I--as a general matter, Senator Murphy, 
let me tell you, we will work to resolve that, and we will work 
to be transparent. It is important to us.
    Senator Murphy. Thank you.
    The Chairman. Thank you.
    Senator Paul.
    Senator Paul. You know, after 16 years, thousands of lives, 
probably a trillion dollars spent, the Afghans do not seem to 
be able to defend themselves. They--you know, maybe people say, 
``If we left tomorrow, the Taliban would take over; therefore, 
we have to stay.'' When will the Taliban--when will the Afghans 
be ready to defend themselves, Mr. Schriver?
    Mr. Schriver. I would be hesitant to put a timeframe on it. 
I think the scrutiny is understandable. I would share every 
frustration that you mentioned about the time and investment. I 
do think the approach that we have adopted--we are six months 
into it; we are not into the new fighting season--traditional 
fighting season yet--I think gives us a better chance to 
achieve results on the battlefield, which will give us a better 
chance at the political settlement.
    Senator Paul. The original mandate from Congress was to go 
after those who attacked us on 9/11, or aided or abetted those 
who attacked us. Who is left over there that aided or abetted 
the attack on 9/11? Specific individuals that we are still 
looking for that aided or attacked it or were involved with the 
9/11 attack?
    Mr. Sullivan. Senator, I believe there are both elements of 
al Qaeda that are still--remnants of al Qaeda that are still in 
existence in Afghanistan, as well as the more lethal 
development of ISIS-K in Afghanistan.
    Senator Paul. Right.
    Mr. Sullivan. So, those would be the terrorist elements 
that we would be most----
    Senator Paul. There is a real question, though, whether or 
not these people want to come attack us here or whether they 
want to control Afghanistan, you know, and whether this is a 
civil war in Afghanistan. And, by all appearances, it is a 
civil war in Afghanistan. And so, I think there is a real 
question whether this has anything left to do with 9/11. You 
can say the--you know, the Tories favored, you know, not 
letting us leave, and there are still Tories in England. I 
mean, are we going to be discussing this in 250 years from now?
    I think there is an argument to be made that our national 
security is actually made more perilous the more we spend and 
the longer we stay there. And I am not saying we do not go 
after those who attack us, and plot to attack us, but everybody 
comes and says we are nation-building, when, in reality, we are 
nation-building. And then some want more nation-building. They 
do not think we are doing enough nation-building.
    And, you know, if you look at the list of things we have 
spent money on--$45 million on a natural-gas gas station in the 
defense budget because we are greening-up Afghanistan, we have 
got to put a green footprint on Afghanistan. Well, it turned 
out, nobody had a natural-gas car over there, so then we bought 
them natural-gas cars; then nobody had any money, so we got 
them credit cards so they could use it at the natural-gas gas 
station over there. That is absurd, and people are horrified by 
what we have done with that.
    We spent $79 million on an Embassy in Mazar-e-Sharif. Never 
opened. It was all done, I think, at Clinton and Holbrook's 
request, and yet they looked at it, finally, and they found out 
there was a courtyard with tall buildings all around it, and 
said, ``Hey, we cannot have an embassy where everybody can 
shoot down into the courtyard.'' And I think it was never 
occupied. We signed a ten-year lease on it.
    Millions and millions, getting to the trillions, of dollars 
spent. There is no military solution. You know, we do not even 
know who to negotiate with. We do not know who the good guys in 
the Taliban are, if there are any, and who are not. We do not 
seem to be very forthright with how many people we are 
fighting. Are we fighting--if we cannot answer Senator 
Johnson's questions in round terms--10,000 Taliban, 100,000 
Taliban, a million Taliban? Sure they slink away. We had 
100,000 troops there. We could win. They all slink away when 
there are 100,000 troops facing them. Then they come back when 
there are not. How are we going to defeat them with 10,000 if 
we could not defeat them with 100,000?
    Maybe it is time we have a frank discussion--Congress--
whether or not there is a military solution in Afghanistan. We 
are spending $50 billion a year. That could be better spent. I 
would give the military all a pay raise and bring all the 
people home from Afghanistan. I would upgrade the nuclear 
arsenal. There are all kinds of things we could do with that 
$50 billion a year. But, it is just being thrown down, you 
know, a hatch in Afghanistan.
    So, I think we really have to reassess this. I do not even 
know how we get to negotiating with the Taliban if we do not 
know who we are going to--you know, are we going to negotiate 
with the people who just exploded something? Obviously not. 
But, then, are there--there is a good-guy form of Taliban 
meeting somewhere? We do not know that. We are in an impossible 
situation.
    And so, I see no hope for it, and I feel sorry for putting 
the military in this position. And we should not be nation-
building. We are not very good at it. And I just hope that 
somebody will come here someday from an administration and say, 
``It is time that we reassess what we are doing in 
Afghanistan.''
    So, I do not see a bright future for Afghanistan. And I do 
not fault the military. I just do not think there is a military 
solution.
    Thanks.
    The Chairman. Well, I actually--would you like to respond 
to that?
    Mr. Sullivan. Sure.
    Senator, I think our policy acknowledges that there is not 
a military solution or a complete solution. The military has to 
be part of the solution, and we have to train and equip the 
Afghans to fight this war against the Taliban. Everybody is 
against----
    Senator Paul. But, we have, for 16 years. I mean, when is 
enough enough?
    Mr. Sullivan. I understand it is America's longest war. 
But, our security interests in Afghanistan and the region are 
significant enough, our commitment to the Afghan government, 
made over 16 years, we are doing, with the minimal amount of 
troops and money that we think can be committed to back the 
Afghan government in their struggle against the Taliban.
    To get back to your original point about terrorists, 
everybody is--even the Taliban is against ISIS. It is a very 
complex battlefield. So, the Taliban is fighting ISIS. And it 
is a very complex political and military situation. And our 
strategy is trying to navigate those complex waters in a way 
that supports the Afghan government both militarily and 
politically so that we can get the Taliban to the negotiating 
table and at least negotiate with elements of the Taliban that 
are not going to--are not committed to blowing up men, women, 
and children on the streets of Kabul, that there is a more 
reasonable element, which we believe there is, that will 
negotiate a settlement to a more stable situation.
    The Chairman. And just out of curiosity, what is our annual 
spend rate right now, all in?
    Mr. Sullivan. For Afghanistan, on assistance, it is roughly 
$780 million a year for security.
    The Chairman. But I am talking about the troop support
    Mr. Schriver. Depending on how you calculate it--I mean, 
direct support, Afghan Security Fund, has been roughly--and 
this last--pardon me, the current year we are in--is about five 
billion. We support directly the U.S. forces that are in-
country. And I believe that is roughly 13 billion. And then 
there are supporting elements to the overall military effort, 
which might bring the total number up closer to 45 billion.
    The Chairman. So, we jump from the 18 billion you are 
talking about to 45 billion. How--tell me how we----
    Mr. Schriver. A big piece of that is efforts outside the 
immediate theater, for logistics support. So, it does depend on 
how you calculate that number. There is a big logistics chain, 
there is a big support chain.
    The Chairman. And so, really, a lot of that would be 
contractors and others who are helping support the direct 
efforts that are underway by our own troops.
    Mr. Schriver. Correct. And other military elements that are 
supportive of the in-theater, in-country fight. Yes, sir.
    The Chairman. And again, this is just for edification. All 
in, what do you think our annual effort is there? So, including 
the State Department's efforts, the other departments that are 
underway doing other kinds of things--we have got multiple 
departments working together to help what is occurring in 
Afghanistan transpire in a positive way, plus the efforts we 
have with contractors, troops, and others--what would you put 
the overall number at on an annual basis?
    Mr. Schriver. Well, this is back-of-the-envelope. The 
assistance piece just mentioned would put it above 45 billion, 
close to 46. But, certainly we can break that out and give 
detailed numbers on how we arrive at that.
    Senator Cardin. I was going to ask if we could get that 
breakdown number, because it is a--that is a large number. And 
it looks like about 2 percent of the total budget is in 
diplomacy and trying to find an end to the war, and 98 percent 
is pursuing the security war efforts. And I think some of us 
wonder if that is the right mix.
    [The information referred to follows:]


        Response to Chairman Risch and Senator Cardin's Question

    For FY 2018, the discrete annual cost of implementing the South 
Asia Strategy in Afghanistan is approximately $15.7 billion. This 
includes $9 billion to cover the direct cost of U.S. military 
operations within Afghanistan, $4.9 billion for security assistance 
through the Afghanistan Security Forces Fund (ASFF), and $1.7 billion 
for Department of State and USAID operations.
    In addition, the Afghanistan contingency operation requires a wide 
array of Department of Defense supportive infrastructure, maintenance, 
training and related costs in the Central Command area of operations 
(AOR) and in the United States. The estimated annual cost for this 
support is $33 billion for FY 2018. This is an inclusive figure that 
includes costs associated only with Afghanistan and some significant 
level of funding connected with regular U.S. military operations that 
will continue after the Afghanistan operation has ended. When these 
additional support costs are included, the estimated total FY 2018 cost 
of implementing the strategy in Afghanistan is $48.7 billion. (See 
attached table)
    The President's FY 2018 amended Budget Request for Department of 
Defense Overseas Contingency Operations (OCO) funding for Operation 
Freedom's Sentinel (OFS) (Afghanistan) is $47 billion, including the 
additional $1.1 billion in the November 2017 amendment request to 
support the President's South Asia Strategy.
    The total OFS request includes the cost of operations and the 
sustainment of troops (including Coalition and Afghan Partners) in 
Afghanistan, within the CENTCOM AOR, and in CONUS.
    The request supports the operations, sustainment, and force 
protection of approximately 14,000 U.S. troops and $4.9 billion of 
direct support to the Afghan National Defense and Security Forces 
through ASFF.
    The request includes funding for CENTCOM command and control, 
communications, logistics, and basing infrastructure; air expeditionary 
forces flying from bases outside of Afghanistan; naval forces afloat 
providing support within the CENTCOM AOR; Coalition support; and other 
counterterrorism and related missions.
    The DOD request provides funding for depot-level maintenance, for 
the reset of deployed equipment, and reachback capabilities for 
intelligence, logistics, and unmanned aerial systems support to 
Afghanistan.
    The request for the Department of State and USAID includes $957 
million in operational costs and $780 million in civilian assistance. 
Operational funding will support the operation and security of 
diplomatic and USAID facilities in Afghanistan and related costs. 
Civilian assistance funds will support programs to continue development 
progress and bolster the stability of the country with an emphasis on 
maintaining the effective provision of health and education services by 
the government, promoting private sector-led economic growth, improving 
the justice system, and empowering Afghan women and girls.
    The figures discussed in this response are our best estimate of 
annual costs to support the U.S. South Asia Strategy in Afghanistan, 
and other related operations. The total figure excludes a few 
relatively insignificant funding streams that are either classified or 
difficult to disaggregate to isolate specific Afghanistan spending.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



    The Chairman. So, I just--I am using part of my time now. I 
do not usually ask questions on the front end. I support a 
conditions-based effort. And I think that is the only way you 
are ever going to get to a place where people are going to 
negotiate with you. I understand there are elements pushing, 
and, you know, the Taliban is fighting ISIS. We had--it is an 
interesting group of characters, if you will, that we are 
dealing with in Afghanistan.
    I think the point that has been made, and is true--I mean, 
the fact is that the Afghan--if you took their entire GDP, it 
could not support the security efforts that are underway. Just 
would not pay for it. And all of this discussion about 
eventually mining precious metals up in the mountains that have 
no railway to them--I mean, I have been hearing that forever. 
And I know it is likely not to occur during my lifetime.
    So, I think the point is well made. I mean, we are, in 
fact, here for a long, long haul. And I think it is true that, 
without the support that we have--they have got a 30-percent--
you know, 30 percent of the folks who are part of the Afghan 
military and security leave each year. So, we have had this--
you know, we have watched training exercises there. They just 
do not stay. They go back home. Obviously, they have had 
significant fatalities.
    If I could, on our own front, over the last 12 months of 
activity, how many fatalities have we had with U.S. or--and/or 
NATO forces?
    Mr. Schriver. Again, I would prefer not to give you an 
incorrect statistic. But it has been relatively light since our 
new strategy, but I will get you an actual number.


    [The question above was also asked by Senator Johnson in his 
``Additional Questions Submitted for the Record''; Assistant Secretary 
Schriver's response to Senator Johnson is located on page 46.]


    The Chairman. And, as we look at embedding some of our best 
and brightest a little bit more deeply into the Afghan 
operations, what is our sense there? I know we have had 
conversations where there have been concerns about some of the 
most talented folks that we have serving in our military being 
embedded in that way. And are we anticipating that casualty 
rate to increase, or do we feel like we can continue on this 
low-casualty-rate trend?
    Mr. Schriver. Well, our hope, and our expectation, is based 
on increasing the capabilities of the Afghan forces, 
themselves, they will be more successful on the battlefield. 
And even if we are providing a train-and-assist--advise-and-
assist function or an enabling function, the effectiveness of 
the force, themselves, would result in less casualties.
    We will certainly learn more about the effectiveness piece 
as--if and when the fighting picks up in the traditional 
fighting season.
    The Chairman. Senator Merkley.
    Senator Merkley. Thank you, Mr. Chairman.
    Thank you, to both of you, for your testimony.
    And, Secretary Sullivan, thank you for your personal 
assistance with the Oregon resident in Sudan who has been 
freed, in large part because of your efforts.
    As we talk about these macro issues, I have an enormous 
amount of frustration, the feeling like I hear the same story. 
Every couple of years, we adopt a modestly different strategy, 
and we say, ``Well, we are turning the corner.'' We heard from 
President Ghani, in October of last year, ``We are turning the 
corner.'' We heard from NATO Commander, General Nicholson, ``We 
are turning the corner.'' But, what did we hear, back in 2011? 
We heard from President Barack Obama that we had turned the 
corner after the surge deployment. We heard from Defense 
Secretary Robert Gates that we had enjoyed a lot of success and 
were turning the corner. We heard from General Petraeus that 
the Afghan forces had turned a corner. And we have the same set 
of hopes and aspirations that somehow we will keep training, 
and somehow now the training will actually result in a fighting 
force that fiercely wants to fight for the Government of 
Afghanistan. And yet, we never get there.
    We continually believe and hope that there is going to be a 
marvelous development to a functional government. But, we do 
not get there. Right now, we have the Vice President out of the 
country, not being allowed to return. We have a growth in 
ethnic divisions within the political establishment, from Uzbek 
to Tajik to Pashtun. We have, essentially, paralysis between 
the National Unity Government, in terms of the CEO, Abdul 
Abdullah, and the President. And then we have other 
aspirations, like, ``But, now we are really turning the corner 
on corruption.''
    Well, we cherry-pick little pieces to say there is a little 
bit of improvement here or there, but, in general, no. Massive 
corruption that destabilizes all of the efforts of--whatever 
efforts the Afghanistan Government is making, but also our 
money has been helping to drive the corruption, because, 
essentially, the price on every position has become higher 
because of the sort of money that we have poured into the 
country.
    And then there is this, the very fact that our presence 
remains a recruiting mechanism for the Taliban. This sense of--
deep in the soul of the villagers of Afghanistan that they do 
not like foreigners goes back--they stopped--throughout 
history, they have stopped one foreign invasion after another 
after another. And I recall the words of poet Robert Kipling, 
who often wrote about wars around the world, but his poem about 
Afghanistan closed with something along the lines of, ``If you 
are wounded and lying on the Afghanistan plain, roll over on 
your rifle and blow out your brains before the women of 
Afghanistan come out and carve up what remains.''
    And so, we have the set of, yes, we are--we--``We will get 
there on corruption.'' But, we do not. ``Yes, we will get there 
on training.'' But, we do not. ``Yes, we will get there on a 
politically effective government.'' But, we do not. Meanwhile, 
we just--we continue to paint a very rosy scenario. And we 
heard a very rosy scenario from you all today. And I feel like, 
if we are going to grip this as a nation, as a government, we 
have to have a really honest conversation about our perpetual 
aspirations that just are not realized, and why they are not 
realized, and why they may be impossible to realize.
    So, one of those aspirations always is the political 
settlement. That is another piece of that. Why do the Taliban 
want a political settlement? They now control more territory 
than they controlled since 2001. They are gaining ground. They 
are creating chaos. They are getting through the perimeter of 
the capital and assaulting an international hotel, blowing up 
key locations, packing an ambulance full of explosives, and 
somehow it gets through our perimeter and into the middle of 
the city and blows things up. Massive explosion.
    This is my plea and hope, that we can have an honest 
discussion about these aspirations that we keep putting forward 
in slightly different versions, but we are really not gaining 
ground. And I would just--I will just throw that out there for 
your--your all's thoughts and comments.
    Mr. Sullivan. Well, I do not know that there is a lot you 
said, Senator, that I would necessarily disagree with. I do not 
think that there is a rosy situation in Kabul. And I do not 
think President Ghani would agree there is. The attacks last 
month were a real shock to many people in the government and to 
a number of the Afghan people, NGOs, and political leaders, 
that I met with. There is no doubt that there is a serious 
challenge we face in dealing with Afghanistan. It took us 
months to come up with the policy that we developed, the 
regional policy that we developed, the South Asia strategy, 
because it is that challenging--the situation you posited is as 
challenging as it is.
    One option is simply to withdraw. We decided we could not 
do that. We have come up with, and we are proposing, this 
policy. It is a regional policy. As I mentioned in my opening 
statement, I met with the foreign ministers in New York for the 
five Central Asian countries that border Afghanistan to the 
north. We are also working with India. India has made billions 
of investment in Afghanistan.
    It cannot just be the United States that solves 
Afghanistan. It is a regional strategy. I do not want to come 
here and say, Henry Kissinger-like, that peace is at hand. I 
cannot say that to you. But, we have got a policy that we 
believe in. We want to stick to it. We want to persevere. And 
we think it is the outcome, and the significance to U.S. 
national security is such, that we cannot fold our tents just 
because there were terrorist attacks in Kabul last month. We 
need to persevere. But, I do not want to leave you with the 
impression that we have got a Pollyannaish view that this is--
we are going to, you know, have peace break out this summer in 
Kabul.
    Senator Merkley. My time is out, so I will just close with 
this comment, which is: My concern about no set timetables and 
no clear metrics for success just means that we are setting 
ourselves up to accept whatever level of failure occurs, and 
still just say, ``We are staying, we are staying, we are 
staying.'' Because it is always hard, in any situation where we 
have inserted troops, to ever say, ``The strategy is not 
working.'' You can do the eighth twist on the old strategy, 
call it a new strategy. It is going to fail. At some point, we 
have to recognize that there are fundamentals here that make 
the direction of our policy ineffective.
    The Chairman. So, I--just one more interjection. Maybe 
another one later.
    It does appear that, in Iraq, we left, we came back, we--it 
does appear there is a reasonable chance of the country holding 
together, if with proper governance, and becoming a more fully 
functioning country. But, they have resources. Afghan has no 
resources. Afghanistan. Never going to have any resources that 
compare to the Iraq situation.
    I mean, is there a credible end--I mean, even in the event 
there is reconciliation with the Taliban? If you will, paint to 
us--paint the picture of what it would look like, in the event 
there was an actual--they are--they do control more territory. 
I know, with this new effort, we expect to gain another 20 
percent and get things back to where they were a few years ago. 
But, they are still going to control a tremendous amount of 
territory. We are still going to have, you know, a tremendous 
amount of illicit behavior taking place. In the event they were 
to reconcile somehow with the current government, with Ghani 
and others, give us a picture of what that would look like, 
going forward, and what our role would be.
    Mr. Sullivan. Well, I think the picture has to be, as I 
said to Senator Merkley, Afghanistan integrated into a region, 
as opposed to simply focused on Afghanistan, itself. Because, 
as you point out, Afghanistan does not sit on a trillion 
dollars' worth of oil wealth, the way Iraq does, a large amount 
of which is now funding government operations in Iraq. We have 
got to integrate Afghanistan into the region. There have been 
discussions with the Uzbek and Tajik governments on 
transmission of electricity into Afghanistan, for example. The 
discussions with India--India wants to do business--Indians 
want to do business in Afghanistan. And ultimately, as we have 
urged President Ghani, the bilateral relationship between 
Pakistan and Afghanistan has to improve. If that does, then we 
think that there is a viable future, economically, for 
Afghanistan. The key, in my opinion, is the relationship 
between Afghanistan and Pakistan. If we cannot solve that, this 
problem is not going to go away. And it is in Pakistan's 
interest to solve the situation in Afghanistan, as well.
    The Chairman. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman.
    Thank you both, Secretary Schriver, Secretary Sullivan, for 
your time today.
    I, too, want to reflect what Senator Isakson talked about, 
the men and women in Fort Benning, and talk a little bit about 
my gratefulness for our men and women in uniform, our armed 
services.
    In the spring, I believe, Fort Carson, Colorado, home to--
Fort Carson, in Colorado, home to the 4th Infantry Division, 
will be deploying troops to Afghanistan later this spring. And 
so, I thank them for their service, and, obviously, the men and 
women in uniform around the globe who have continued to stand 
up for our country and our country's interests.
    According to a BBC news report--and perhaps you have talked 
about this earlier today--on January 31st, the news report 
stated, ``The Taliban fighters, whom U.S.-led forces spend 
billions of dollars trying to defeat, are now openly active in 
70 percent of Afghanistan. The study conducted by BBC shows 
that the Taliban are now in full control of 14 districts and 
have an active and open physical presence in a further 263 
districts, significantly higher than previous estimates of 
Taliban strength.''
    Could you address that a little bit? And when we were in 
Afghanistan two years ago, I believe it was, we met with 
General Campbell--then General Campbell--and talked about 
authorities that we were operating under in Afghanistan. And we 
have seen those authorities change. And that has made a 
difference in Afghanistan. But, with this BBC report, do we 
need an additional change to those authorities? And what does 
that mean?
    Mr. Schriver. We have certainly seen these reports, and we 
are concerned about reports of Taliban gains in some of the 
rural, less populated areas. They do not control a major 
population center. They have been denied their strategic goal 
of overrunning a province. But, we are clearly not where we 
want to be. So, part of our train-advise-assist mission and our 
enabling function is to help the Afghan Security Forces win on 
the offense. And then they have--ultimately, have to be able to 
hold territory, as well. That will change, hopefully, the 
calculus of the Taliban and understand that they cannot prevail 
on the battlefield, and will ultimately lead to a political 
process.
    Senator Gardner. Would you like to address the issue of 
authorities? If current authorities for U.S. forces operating 
against insurgent elements, do they need to be expanded or 
refined, on top of what has already been done?
    Mr. Schriver. I think where we stand right now, our 
commander in the field is comfortable with, and our military 
officials are comfortable with. There will be a process of 
continuing to evaluate the effectiveness of our support to the 
Afghan forces. And, through continual evaluation, there may be 
a case in the future where we would want to revisit that. But, 
at this point, I think we are comfortable.
    Senator Gardner. Secretary Sullivan, you mentioned, in your 
last answer, that we need to integrate Afghanistan into the 
region. This is a region that also includes China, Iran, 
Russia. There have been reports, obviously, of Iran and--
Iranian and Russian support of the Taliban. Can you talk a 
little bit about what you are seeing, in terms of Iranian and 
Russian involvement?
    Mr. Sullivan. Certainly. We have seen, with respect to 
Russian involvement--and I was up at the U.N. Security Council 
a couple of weeks ago, and discussed this--we have seen Russian 
support for elements of the Taliban as a hedging strategy, and 
some accusations that the United States is supporting ISIS--you 
know, false information campaigns----
    Senator Gardner. This is the conspiracy theory, and they 
are trying to generate----
    Mr. Sullivan. Trying to generate--very unhelpful and, of 
course, wildly inaccurate. So, the Russian influence has not 
been welcome.
    There is a Shi'a minority population in Afghanistan. 
Afghanistan shares a long border with Iran. Just as Iraq and 
Iran have to coexist as neighbors, so does Afghanistan and 
Iran. What we are concerned about is pernicious influence by 
Iran that would undermine Afghan sovereignty, as we are with 
respect to Iran's influence in Iraq.
    China has made investments in Afghanistan. And I think we 
are looking for all countries in the region to support a 
peaceful, prosperous Afghanistan. It is not just going to be 
the United States that is going to be able to achieve that 
ultimate goal.
    Senator Gardner. Yeah. Thank you.
    When you say ``Russian--Russia support for elements of the 
Taliban,'' what are you referring to?
    Mr. Sullivan. Well, there are reports that Russian--Russia 
has provided support to groups in northern Afghanistan that are 
aligned with the Taliban. And it is sort of a hedging strategy. 
It is playing both sides, dealing with the Ghani government in 
Kabul, but also supporting the Taliban. And we are not willing 
to go to the peace table today with Taliban, because of their 
violent terrorist activities in Kabul. Elements of the Taliban, 
at least, we believe are dealing with some parts of the Russian 
government.
    Senator Gardner. And, Secretary Schriver, I was going to 
shift a little bit to Asia, but we are out of time, so I will 
yield back and thank you both for testifying.
    The Chairman. Senator Merkley--I mean, sorry--Markey. I do 
that often. Sorry about that.
    Senator Markey. Oh, no problem. I do not mind. I do not 
know about Jeff, but I do not mind. The--you know, so I thank 
you, Mr. Chairman.
    I think that we can agree that the United States needed to 
take swift action, and decisive action, after September 11th. 
It was important to reduce the likelihood that Afghanistan 
would continue to be a sanctuary for terrorists who would be 
seeking to harm Americans. The December 2017 statement of the 
National Security Strategy is that the United States will give 
priority to strengthening states like Afghanistan. Yet, the 
National Defense Strategy, released the following month, stated 
that the central challenge to U.S. prosperity and security is 
the reemergence of long-term strategic competition, not fragile 
states like Afghanistan.
    I think, Mr. Schriver, I heard you say that we are now 
spending $45 billion a year in Afghanistan. Is that the number 
that you used?
    Mr. Schriver. Again, it depends on how it is calculated. 
But, bringing in elements outside of theater that are in 
support----
    Senator Markey. Yeah.
    Mr. Schriver. --you can--you could have that number. And we 
can provide the breakdown.
    Senator Markey. Yeah. So, $45 billion a year is an amazing 
amount of money to be spent. Just by comparison, Andrew 
Kolodny, who works at Brandeis University--and he is the 
director of their opioid research facility--he said that, ``If 
you just took two months of Afghanistan spending and dedicated 
it towards the opioid crisis, we could have an opioid center in 
every single county in the United States of America.'' And, 
just in Massachusetts alone, we had 2,000 people die from 
opioid overdoses last year. Seventy-five percent of them had 
fentanyl in their system. And we do not--we still do not have 
any more than 20 percent of Americans who are in treatment, who 
need it, who would qualify for it. So, we could be looking at 
an--we could be looking at a Vietnam War every single year in 
America, just from opioids. And the funding is completely 
inadequate.
    So, I guess, from my perspective, as you look at 
priorities--in saving American lives, making sure that we are 
protecting people, including veterans who are back, who do not 
receive the treatment which they need--I would like to ask you 
just to reflect upon that, and the amount of money which we are 
spending there, knowing that it does come out of services like 
that, that could save lives, could save tens of thousands of 
lives, if the resources were there to provide that kind of 
help. Would either of you like to speak to that issue, that 
resource allocation issue?
    Mr. Schriver. I think we need to be mindful of the costs. 
And I am--I--we certainly welcome the oversight and the 
scrutiny, and we should be held to task, if we are making gains 
and getting closer to reaching our objectives. Those are very 
fair and important questions to ask.
    I think we look at the enduring interests we have. And that 
was the starting point when the new strategy was developed, 
looking at a region with two nuclear-armed countries, looking 
at a region that harbors all these foreign terrorist 
organizations. And we think we have developed a strategy that 
will give us a chance for success. There--but, as the Deputy 
Secretary said earlier, there is no attempt to paint a rosy 
scenario. These are significant challenges, to be sure.
    Senator Markey. Mr. Sullivan.
    Mr. Sullivan. Yes. As Secretary Schriver said, it is--it is 
an enormous cost, and you have drawn a stark contrast with what 
we could do with that money. The assessment we made in this 
administration was that the threat to U.S. national security 
from a withdrawal from Afghanistan was such that we needed to 
make that commitment.
    And the problem that we face is--and I will just give you 
an example from the State Department--we make it a commitment 
to have our Embassy in Kabul. The number of U.S. direct hires--
State Department employees--it is in the hundreds--500-and-
some-odd employees. We need 6,000 security personnel, 
contractors, to protect that small group. Once we make a 
commitment to go in, and we make a commitment to the safety and 
security of our people, the costs multiply----
    Senator Markey. And again, I----
    Mr. Schriver. --exponentially.
    Senator Markey. --and I appreciate that. And, of course, we 
thank everyone for their service who takes on responsibility. 
But, it is only to make the point that----
    Mr. Schriver. Right.
    Senator Markey. --for one-sixth of what you do in 
Afghanistan, 45 billion, we could take care of this crisis over 
a period of time. And we do not have the resources. So far--you 
are here testifying on behalf of the administration, for 45 
billion more, essentially, and this administration has yet to 
put up one nickel for the opioid crisis. Not one nickel. We are 
still waiting to resolve this issue in the budget. It is--it 
had been 14-15 months without a single nickel on something that 
is killing Americans every single day, and many of them 
veterans. And there is no money. And they are saying this--you 
know, it is just so hard to find the money. And yet, here, if 
we just cut your budget down by 7 billion, there would be 
enough to put an opioid treatment center in every single county 
in the country. That would be comprehensive. So, it is a--I 
just keep--ask you to be mindful of that tradeoff, because 
every decision you make is draining from things that would, in 
fact, help people. They are--these very families of--that are 
over there serving us, here at home.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    And thank you both very much for your service.
    And I will not repeat it, but I also share the frustration 
you have heard from both sides of the aisle here, in terms of 
where we are in Afghanistan. And I want to look back a little 
bit, because I remember, at the time, when I was in the House 
and we voted for the authorization of force, President Bush was 
very specific about us going after ``terrorists of global 
reach.'' That was the term he used. And it--and, you know, when 
I look at President Trump's quote, here, on the new strategy 
last summer, he says, ``We are not nation-building again. We 
are killing terrorists.''
    And so, what I am probing, from both of you, is, you know, 
are we focusing on terrorists that have global reach, that we 
believe are there in Afghanistan? And how many are there? Or 
are we focusing on--are we just focusing, like the President 
says, ``We are just killing terrorists''? I mean, this is a--I 
have a longer statement here, but it basically says, ``We are 
turning this over to Afghanistan, we are going to let them 
govern, we are going to let them do it, we are not going to 
tell them how to do it, we are--and we are not nation-
building.''
    So, will you focus on the terrorists and a global reach? 
Because I think we have extended way beyond that, not only in 
Afghanistan, but around the world. And I thought the way 
President George W. Bush phrased that was very important.
    Please.
    Mr. Sullivan. Flip a coin.
    You are absolutely right, Senator. The reason we are in 
Afghanistan is because of what happened on September 11th. It 
is still the reason we are in Afghanistan. There is still--
there are still remnants of al Qaeda there. ISIS has 
metastasized into Afghanistan, with ISIS-K. If the Taliban were 
to regain control of the country, we would very likely see the 
same platform for that global reach of terrorists that struck 
New York and Washington and Pennsylvania on September 11th.
    Having made that decision that we need to stop that 
platform from being recreated by the Taliban, it then causes, 
as I was discussing with Senator Markey, a decision for the 
United States to maintain a presence, an engagement in 
Afghanistan, automatically because of the security situation, 
generates enormous costs just for the State Department.
    So, our strategy is an effort to reconcile the cost, to 
minimize the cost to the U.S. Government, but with--in treasure 
and, more valuably, lives of my colleagues at the State 
Department and those of my colleagues in uniform--but also do 
all we can to support the Afghan government so that we do not 
have a Taliban that resumes using Afghanistan as a platform for 
terrorists.
    Senator Udall. And could you add--he has mentioned ISIS 
again. And we have seen, with our allies and others, the defeat 
of ISIS in their capital in Raqqa. How many ISIS fighters have 
now come over into Afghanistan? That has been some discussion 
about that. Assistant Secretary Schriver, when you answer the 
first question, there.
    Mr. Schriver. Yeah, it is certainly something that we are 
watching carefully, that, to defeat ISIS in one location, only 
to have them reinforce elements in another, would be certainly 
harmful to our interests.
    So, our CT mission, our counterterrorism mission, sometimes 
in combination with the Afghan forces, sometimes unilateral, is 
exactly as the Deputy Secretary said, it is to prevent 
Afghanistan from being a place from which terrorists can 
launch, plan, support in any way, an attack against American 
citizens, our homeland, or our interests. Our assessment is, 
walking away would, in fact, create the potential for such a 
platform to reemerge.
    Senator Udall. So, do you have a number for me, a specific 
number, or can you get me one for the record, on how many ISIS 
fighters there in Syria and other--have made it in since the 
fall of Raqqa?
    Mr. Schriver. We will certainly work with the intelligence 
community to see what assessment can be made available, yes.


    [The committee received no response to the question above from 
Assistant Secretary Schriver.]


    Senator Udall. Okay. The one thing that I think was kind of 
shocking to some on the committee in--was this $46 billion, 
when you added it all up. I think Senator Paul used the term 
``50 billion,'' but you are going to add it--add us up and give 
us the actual number. But, what I am wondering is, the folks we 
are fighting--the Taliban, ISIS--al Qaeda, you have mentioned 
them--what kind of resources do they have? What do--how--of 
countries outside and their own local resources--are they 
putting up $46 billion a year to get--as Senator Merkley said, 
they control more territory since 2001. So, how much are they 
putting up?
    Mr. Sullivan. Well, what I would say, Senator Udall, is, as 
Secretary Schriver said, the Taliban control unpopulated areas. 
What they are doing in those unpopulated areas is actually 
cultivating and producing narcotics, which they are selling. To 
get to Senator Markey's point, the production of narcotics in 
Afghanistan from regions that are controlled by the Taliban is 
skyrocketing. And that is among the principal sources, more 
than 50 percent----
    Senator Udall. What cost do you put on that?
    Mr. Sullivan. I do not have a dollar figure, but what I 
have is an estimate that whatever the--whatever--and we can get 
you that from the intelligence--the dollar figure for what the 
Taliban, we think, however defined--whatever our definition of 
the Taliban is, putting a dollar figure on that, 65 percent, 
rough estimate, of how they finance themselves is through the 
sale--production and sale of narcotics.
    Senator Udall. And so, you do not--you will try to get us 
an overall number. Because I am very interested in what our 
overall number is, and what theirs is. And, you know, one of 
the great diplomats, Richard Holbrook, when he was in there--
and both of you may know him--he started the strategy, because 
of the growing of poppies and all of that--he said, ``Well, we 
are going to allow them to grow them until they shift over to 
another product.'' And--a legitimate farming product or 
something like that. Are we trying anything like that in the 
areas that we end up capturing? Are we--or are we just 
eradicating fields and putting a small farmer out of business?
    Mr. Sullivan. Well, first, on the statistics that you asked 
for, Senator, several members of the committee, starting, I 
think, with Senator Johnson, have asked. So, Mr. Chairman we 
will commit to providing all of that information. Some of it 
may be classified, but we will produce those stats, the best 
numbers that we can get you on the facts and figures.
    And then, with respect to narcotics, Senator, the State 
Department has got a limited budget for counternarcotics 
efforts in Afghanistan. There is a larger effort--because of 
the Taliban's use of narcotics to fund operations against the 
U.S. military and the Afghan government, the U.S. military is 
also committed to the counternarcotics effort.
    [The information referred to follows:]

         Deputy Secretary Sullivan's Response to Senator Udall

    Mr. Sullivan. Terrorist groups around the world raise funds from a 
variety of sources, including theft, extortion, drug production and 
smuggling, extraction and trafficking of commodities like oil, 
kidnapping for ransom, fundraising from donors and charities, and other 
illicit activity.
    According to the May 2017 ``Opium Survey Report'' published by the 
United Nations Office on Drugs and Crime, the Taliban generated 
approximately $160 million from ``poppy taxes'' in 2016. The report 
also adds that the estimated overall annual income of the Taliban 
(drugs and other sources of income) is around $400 million; half of 
which is likely to be derived from the illicit narcotics economy.
    Al-Qa'ida largely depends on donations from supporters and from 
individuals who believe their money is supporting humanitarian causes. 
Other funds are diverted from Islamic so-called charitable 
organizations. Al-Qa'ida may have operated on a budget of up to $30 
million a year prior to the September 11, 2001 attacks, but its annual 
income has decreased significantly in subsequent years due to 
counterterrorism pressure against the group and its networks.
    ISIS receives most of its funding from a variety of businesses and 
criminal activities within areas it controls in Iraq and Syria. 
Criminal activities include robbing banks, smuggling oil, looting and 
selling antiquities and other goods, as well as extortion, human 
trafficking, and kidnapping-for-ransom. The efforts of the Counter-ISIS 
Finance Group (CIFG) have been critical in coordinating the work of 
Coalition members designed to counter ISIS's means of financing. ISIS 
has lost over 98 percent of the territory it once controlled in Iraq 
and Syria, which has directly impacted ISIS's ability to generate 
revenue. In 2015, ISIS made about $500 million from the sale of oil and 
about $360 million from extortion. In 2017, ISIS lost control of the 
majority of its oil and gas fields and the population centers it 
previously exploited as a critical taxation base. By mid-2017, the 
group's oil sales were in the low millions of dollars per month.


    Senator Udall. Thank you both for your service.
    Thank you, Mr. Chairman.
    The Chairman. But, we are no longer--and we had a major 
spring operation, if you will, eradicating poppy fields. And 
then that stopped. And, to get specifically to his question, 
we--that is no longer a robust program. Is that correct?
    Mr. Sullivan. Right.
    The Chairman. And, just out of curiosity, it is not a 
robust program, because?
    Mr. Sullivan. Well, I am--I believe that the U.S. military 
has focused on the narcotics production in areas that are 
controlled by the Taliban, both to limit the production in the 
country, but also to cut off the source of revenue to the 
Taliban. So, destruction of Taliban financing, so to speak.
    Mr. Schriver. That is correct. There is an effort--there is 
a more comprehensive effort at illegal illicit financing, but, 
in terms of the drug production and trade and money that they 
may make off that, there is certainly an effort to disrupt, 
particularly, storage facilities, distribution points, et 
cetera. It is something that the Afghan forces are focused on 
and we are assisting with.
    The Chairman. And--but not the fields, themselves.
    Mr. Schriver. Not similar to the programs that we once had, 
that was mentioned earlier. Yes, sir.
    The Chairman. Senator Coons.
    Senator Coons. Thank you, Mr. Chairman.
    Thank you for your testimony, and thank you for your 
dedicated work in some extremely difficult areas of 
undertaking.
    Let me just add, if I could, two questions that I think 
have not been addressed in detail, or maybe just in passing by 
one of my colleagues.
    First, about other actors in the region. Mr. Schriver, you 
had mentioned that part of regionalizing our approach is an 
attempt at both expanding burden-sharing and neutralizing 
potential spoilers to U.S. efforts. And part of what I think 
has bedeviled our efforts in Afghanistan have been the lack of 
reliable cooperation, partnership, assistance, support from 
regional players. I think Senator Gardner asked about Russia 
and Iran.
    Let us focus, if we could, on China and the reports that 
they are constructing, or planning to construct, a military 
base in eastern Afghanistan. Do you think there is a chance 
that China could be a viable constructive counterterrorism 
partner for the United States in Afghanistan? Do you think our 
pressure on Pakistan will only succeed in pushing them closer 
to China? And how do you see China playing either a 
constructive or destructive role in both diplomacy and 
development efforts, Mr. Sullivan, that are underway, and the 
military security efforts that are underway?
    Mr. Schriver. Thank you, Senator.
    I think there is the possibility that China, on the 
counterterrorism front, could be a partner. They certainly have 
their own concerns about terrorism within China, and the 
potential for linkages between terrorist groups operating 
elsewhere, and for that to seep into China. Historically, we 
have run into some difficulties, what they define as a 
terrorist, particularly inside China, and the way we look at 
things. There is an important difference there. But, they do 
have an interest in stability in Afghanistan. They do have an 
interest in ultimate political resolution. And I do not see how 
we get there without fundamentally addressing the terrorist 
problem.
    So, in our discussions with China, it is an agenda item, 
how we promote our cooperation and how we can for--ensure that 
they are a constructive participant in the process that is 
underway in Afghanistan.
    Senator Coons. Mr. Sullivan?
    Mr. Sullivan. Yeah. And with respect to economic 
development, Senator Coons, certainly Afghanistan would be 
included as a small part of what you know as China's One belt, 
One road initiative. What we have found--and this goes to an 
observation that Senator Corker made--some significant 
investments by the Chinese--for example, billions of dollars 
invested in a copper mine that they have yet to be able to 
develop production from, and now sits dormant. So, there are 
significant challenges to economic development in China that--
excuse me--in Afghanistan, that the Chinese have discovered, 
that Senator Corker and I were discussing earlier.
    Senator Coons. Accessing--building the infrastructure in 
Afghanistan to ever access its vast mineral potential is 
something that I think you said may not happen in your 
lifetime. I agree that it--I mean, visiting Afghanistan gives 
an insight into just how remote, how rugged, and how 
undeveloped it is as a nation. It may have vast mineral 
resources. They are still there because they are so incredibly 
hard to access.
    Let me turn to humanitarian issues. The U.N. reports nearly 
half a million individuals, about 450,000, became internally 
displaced, became IDPs, within Afghanistan in the last year, 
and about 60,000 refugees returned from outside the country. 
Does the Trump administration plan to increase, Mr. Sullivan, 
its budget request to help refugees and IDPs within 
Afghanistan? And how does the administration's strategy account 
for the dramatic number of Afghan refugees in Pakistan, and 
then how that destabilizes the region, and how that 
humanitarian challenge continues to be a contributor to 
conflict?
    Mr. Sullivan. Well, that last point you raised, Senator, is 
very significant, and was brought up with almost every 
interlocutor I had in my discussions in Kabul last week. The 
potential for Pakistan to send back the huge number of Afghan 
refugees that are now in Pakistan would be very destabilizing.
    Senator Coons. Right.
    Mr. Sullivan. And it is one area where we credit the 
Pakistani government for what they have done in supporting 
those refugees. And it is part of our complex relationship with 
Pakistan. We have got, on the one hand, our concerns with their 
lack of action to eliminate terrorists from these safe havens, 
but, on the other hand, they have provided this support to all 
of these refugees, which, if they did not, if they went back 
into Afghanistan, would be a huge burden for the Afghan 
government. And President Ghani is very concerned about that.
    Senator Coons. Just to make sure I understand, there are 
more than two million Afghan refugees in Pakistan, many of them 
dating to the Soviet invasion of '79.
    Mr. Sullivan. Yes. And they are identified by the 
Pakistanis, and they could be sent over the border.
    Senator Coons. Let me ask a question that is not meant to 
be needlessly pointed, but, How does it affect our moral 
authority in having that conversation with the Pakistanis, when 
the administration has recently decided to begin deporting 
folks who have also been in the United States for decades, 
under temporary protected status, fleeing conflict or natural 
disasters in their countries of origin? How does that impact 
those conversations about--saying to the Pakistanis, ``We would 
be appreciative, supportive if you would continue to host 
several million refugees in your country''? Do they simply turn 
around and say, ``Then why are you deporting hundreds of 
thousands of people who initially came to your country as 
refugees from civil wars or from natural disasters?''
    Mr. Sullivan. That issue has not been raised to me, in my 
discussions on this issue with the Pakistani government, but I 
take your point. It is, rhetorically, something that they 
could. I would draw distinctions between the legal status under 
which the TPS individuals were admitted here to the United 
States. But, I take your point.
    Senator Coons. But, more broadly, I must say, thank you for 
your work. It is striking--The Chairman, earlier, was saying, 
``All in, what are we talking about?'' And I--the number, 45 
billion, is going to hang over my thoughts for a number of 
weeks--16-17 years in. I am not convinced that we have a 
strategy to win. But, a conditions-based strategy and looking 
harder at our partners in the region strike me as at least 
giving us the potential for progress. I listened to testimony 
from both of you in the question-and-answer from both 
Republican and Democratic members. I do not think there is a 
clear path out of Afghanistan. And I worry that the Taliban 
will simply wait us out, regardless of how long we are there, 
and that, as a result, we may be there the rest of my life.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We are going to close. Are there any comments that were 
left hanging that you would like to respond to?
    Mr. Sullivan. Not for me, Mr. Chairman, no.
    Mr. Schriver. No, sir.
    The Chairman. Okay.
    Well, look, we know you came into office, and you have been 
in now for a year and a month. And this is something you 
inherited. I think most of us appreciate the conditions-based 
approach, the fact that you are really dealing with a region, 
the fact that we are pushing back against some of the duplicity 
that Pakistan has been putting forth for years. And I think we 
are all struggling, just like you are, to try to figure out a 
path forward, when it is pretty murky right now as to how we 
get to a place where Afghanistan is able to function without 
significant support from the West and other countries.
    But, I do think that the strategy and--that you have laid 
out, is a better strategy towards that end. And I--you know, 
obviously, we may ask for a classified briefing, here in the 
near future, to get into some of the details we were not able 
to discuss here.
    But, we thank you for your efforts. We thank you both for 
your transparency and your service to our country.
    We are going to leave the record open until the close of 
business on Thursday. If you could fairly promptly answer any 
additional written questions that may come in, we would 
appreciate it.
    And, with that, the meeting is adjourned.
    [Whereupon, at 11:54 a.m., the hearing was adjourned.]


                              ----------                              


              Additional Material Submitted for the Record

              Responses of John J. Sullivan to Questions 
                Submitted by Senator Benjamin L. Cardin

                    peace process and reconciliation
    Question. We have long said that peace and reconciliation must be 
``Afghan-led'' and ``Afghan-owned,'' but the U.S. remains a party to 
this protracted conflict and our push for peace has been quiet and, so 
far, without meaningful results. There is skepticism among many 
countries in the region about how serious the U.S. is about a peace 
process, which disincentivizes them to back our strategy in 
Afghanistan. The President's recent comments rejecting outright any 
talks with the Taliban do not help.

    Please provide specifics of the Administration's diplomatic 
strategy to pursue a negotiated political settlement, including which 
senior officials are personally engaged in this effort, the frequency 
and substance of conversations on this topic with the Afghan 
government, any prospects for the U.S. to engage in dialogue with the 
Taliban in the context of peace negotiations, and a summary of foreign 
assistance programs that aim at building support for peace negotiations 
and reconciliation at the community level.

    Answer. The South Asia Strategy announced by President Trump is a 
conditions-based strategy designed to make clear to the Taliban that 
they cannot achieve their objectives on the battlefield and instead 
must pursue their objectives at the negotiating table with the Afghan 
Government as participants in a peace process designed to come to a 
durable peace agreement. Necessary outcomes of any peace agreement must 
include an absolute commitment from the Taliban that they will cut ties 
to terrorism, cease violence, and accept the Afghan constitution--a 
constitution that includes protections for the rights of women and 
minorities.
    President Ghani has worked to build public and international 
support for peace talks, and to expand outreach to the Taliban and 
other insurgents. The onus of responsibility is now on the Taliban to 
demonstrate that they are ready to talk. The Afghan government can only 
negotiate if the Taliban are ready. Recent terrorist attacks in Kabul 
show that they are not.
    The Administration is working closely with the Afghan government, 
including President Ashraf Ghani, his National Security Advisor, and 
National Directorate of Security chief, to initiate a peace process. 
The Afghan government attaches a high priority to the peace process, 
which is reflected in the frequency of conversations with Ambassador 
Bass in Kabul and with SCA Senior Bureau Official Ambassador Wells. The 
substance of these conversations has related to defining Afghanistan's 
vision for a peace process and gaining broad regional and international 
support for this vision. In recent weeks the focus has been on Afghan 
preparations for the February 28 Kabul Process Conference, where the 
Afghan Government is expected to lay out its vision for peace.
    The State Department has assisted in building support for peace 
negotiations and reconciliation at the community level through an 
evolving set of Afghan initiatives under the management and oversight 
of the Afghan High Peace Council (HPC) and the UNDP. The current Afghan 
approach is the Peace and Reconciliation in Afghanistan (PRA) plan, 
which supersedes the earlier Afghanistan National Peace and 
Reconciliation initiative and Afghanistan Peace and Reintegration 
Program. In September 2017, the Department disbursed $3.9 million in FY 
2016 funding to the UNDP to support the PRA project initiation plan, 
which supports HPC efforts to build consensus for peace at the 
community level through outreach activities with tribal leaders and 
local powerbrokers. The Department is considering allocating $6 million 
in FY 2017 ESF funding to support future HPC activities through UNDP, 
pending Congressional approval.

    Question. Is the Administration willing to discuss substantive 
issues with the parties in the context of peace negotiations--including 
U.S. troop presence in Afghanistan and power-sharing options--that are 
key concerns for the Taliban to give up its fight and will likely 
require intensive U.S. diplomacy with the parties to resolve? If not, 
what subjects is the U.S. willing to discuss and what do you think will 
these discussions achieve?

    Answer. The Administration has no preconditions for peace talks and 
is willing to discuss all substantive issues--including the future 
disposition of U.S. forces in Afghanistan and power-sharing 
arrangements--within the context of negotiations that include 
representatives of the Afghan government. With respect to potential 
changes to Afghanistan's legal and governing structures, we want to 
ensure that any final agreement respects the Afghan constitution, 
including its critically important protections for women and 
minorities. We also have made clear that as end conditions of the peace 
process the Taliban must renounce violence and end any links to 
terrorist organizations.

    Question. How are you encouraging the Afghan government to 
seriously pursue dialogue with the Taliban? Did you meet with the High 
Peace Council during your visit? What were your impressions? What is 
the Afghan government doing to build support among its citizens for an 
eventual peace deal with the Taliban, and how is it approaching 
questions of transitional justice and accountability for wartime 
abuses?

    Answer. The Afghan government is serious in pursuing a dialogue 
with the Taliban and has made this clear publicly and through private 
channels. At the February 28 Kabul Process Conference the Afghan 
Government will clearly reiterate its interest in peace. Regrettably, 
this interest has not been reciprocated by the Taliban. Recent horrific 
terrorist attacks in Kabul demonstrate that the Taliban remains 
committed to violence and is not yet serious about peace.
    Deputy Secretary of State Sullivan met with Afghan High Peace 
Council (HPC) Chairman Mohammad Karim Khalili and HPC Secretariat Chief 
Mohammad Akram Khpalwak during his January 29-30 visit to Afghanistan. 
The Deputy was impressed with the energy and vision of the HPC's 
leadership and by its commitment to building a public consensus for 
peace. Transitional justice and accountability can be expected to 
emerge as issues for the HPC at later stages of a peace process, when 
the parties have developed greater mutual confidence and trust.
                           regional diplomacy
    Question. What specific conversations are you having with Pakistan, 
China, India, and other regional actors to make progress toward peace, 
and what do they want from us?

    Answer. Our South Asia strategy envisions Pakistan playing an 
important role in convincing the Taliban to negotiate with the 
Government of Afghanistan, in order to achieve a negotiated settlement 
that stabilizes Afghanistan and brings peace and prosperity to the 
region. While Pakistan has proposed that the United States begin direct 
talks with the Taliban immediately, we have insisted that the Afghan 
government be present at any talks about Afghanistan's future. The 
Taliban rejects the legitimacy of the Afghan government and has been 
unwilling to enter into direct talks.
    In order to include China in discussions about reconciliation, we 
initiated a renewed Quadrilateral Coordination Group with China, 
Afghanistan, and Pakistan, through a meeting in Oman on October 16, 
2017. China favors an approach focused on Afghan government reforms and 
clear signals that the Afghan and U.S. governments seek peace. During 
President Trump's November 2017 visit to Beijing, he and President Xi 
discussed measures to support a prosperous and stable Afghanistan. 
While we and China have disagreements about the need to put pressure on 
Pakistan to end its support for terrorist proxy forces, we believe that 
China will be a key actor in the peace process, and there is overlap in 
our positions and room for further discussions.
    India remains a vital partner on Afghanistan, largely through the 
provision of substantial economic and development assistance. India has 
allocated more than $3 billion in assistance to Afghanistan.
    We also have continued to discuss peace in Afghanistan with our 
partners in the Middle East, such as Saudi Arabia, Qatar, and the 
United Arab Emirates. These countries also seek peace and stability in 
Afghanistan and have offered to assist us in this process. We have 
encouraged them to strengthen their capabilities in combatting 
terrorists' financial networks--the more the Taliban are under 
pressure, the more likely they are to seek a negotiated settlement.

    Question. Have you seen any positive changes in Pakistan's behavior 
since the President suspended security assistance last month?

    Answer. Following the Administration's January decision to suspend 
the vast majority of our security assistance, we have conveyed that we 
are prepared to lift the suspension when we have seen decisive and 
sustained efforts to eliminate the capacity of externally-focused 
terrorist groups to carry out attacks against neighboring countries. 
Pakistan continues to cooperate with the United States on areas of 
mutual interest, and has taken some steps in response, particularly in 
the area of terrorist financing. We have not seen decisive action from 
Pakistan to deny sanctuary to externally-focused terrorist groups, such 
as the Taliban and Haqqani Network. We will continue to evaluate 
Pakistan's responsiveness to our requests in the coming months.

    Question. Where do you go from here on Pakistan if the aid 
suspension does not motivate them to deny safe haven to the Taliban, 
given their fear of India gaining a strategic advantage from a stable 
Afghanistan?

    Answer. Our South Asia strategy envisions Pakistan playing a key 
role in convincing the Taliban to enter a peace process leading to a 
negotiated settlement in Afghanistan. At the same time, we have been 
very clear that the Pakistani government must take decisive action 
against all militant groups based in Pakistan, including the Taliban 
and Haqqani Network. Our requests of Pakistan have been specific and 
consistent.
    We also recognize that Pakistan has legitimate security concerns in 
Afghanistan, particularly relating to the ability of groups such as the 
Tehrik-e Taliban Pakistan (TTP) to use Afghan soil to attack Pakistan. 
We continue to work to address these concerns by countering the TTP and 
related militants, and encouraging better coordination on border issues 
between Afghanistan and Pakistan. Pakistan has been a good host for 
millions of Afghan refugees for nearly 40 years, and has an interest in 
their voluntary, orderly return to their homes in Afghanistan.
    We continue to engage with Pakistan's leadership on our concerns in 
private, and will use the full range of tools at our disposal to 
encourage Pakistan to take action against all militant and terrorist 
groups operating on its soil. Discussions about which specific tools to 
use and when to use them are ongoing within our Department and the 
inter-agency. We will calibrate our relationship in accordance with the 
degree to which Pakistan addresses our concerns about its policies.
                       afghan domestic situation
    Question. I am concerned by reports of increased divisions in 
Afghanistan's political and ethnic landscape that exist independently 
of the conflict with the Taliban. The hard work to ensure credible, 
inclusive elections and a broadly representative Afghan government 
can't be an afterthought to our military efforts--it is central to 
ensuring a democratic, prosperous future for the country where the 
rights of all Afghans are secure.

    How are you pressing the Afghan government and various political 
factions to forge compromises and make progress on reforms, including 
on fighting corruption, in an equitable and inclusive way? What 
prospects do you see for progress in these areas?

    Answer. We discuss regularly with President Ghani and senior Afghan 
officials the importance of reform, including anti-corruption. The 
Afghanistan Compact, an Afghan-led initiative launched in August 2017, 
tracks the implementation of reforms related to security, governance, 
economic development, and peace and reconciliation. We cooperate 
closely with the Afghan government on the Compact reforms, and we 
emphasize with political stakeholders both inside and outside the 
Afghan government the necessity of non-partisan implementation of 
reforms to ensure their durability beyond any given political cycle.
    Enhancing anti-corruption efforts is necessary across all sectors. 
Despite a series of challenges, Afghanistan's Anti-Corruption Justice 
Center (ACJC) has successfully investigated and prosecuted several high 
ranking officials accused of corrupt activities. We continue to press 
top government leaders, including the Afghan Attorney General, to 
investigate and prosecute high level corruption cases, regardless of 
the political status or military rank of the accused.

    Question. How are you engaging the Ministry of Interior (MoI) and 
the Attorney General's Office in particular to promote accountability 
for gross violations of human rights by police and other Afghan 
officials? In particular, how are you addressing credible reports of 
the use of boys as sex slaves by MoI forces?

    Answer. The Department takes allegations of gross violations of 
human rights by Afghan security forces very seriously. The Department, 
through the Leahy Law, ensures that where there is credible information 
that a unit or individual has committed gross violations of human 
rights, such unit is ineligible to receive U.S. assistance, and we 
impress upon Afghan government leaders the importance of holding 
accountable those individuals who violate human rights laws, to include 
the exploitation of minors for sex by Afghan security force personnel.
    The State Department's Bureau of International Narcotics and Law 
Enforcement Affairs (INL) continues to work with the Afghan government 
to strengthen provisions in Afghan laws and regulations against sexual 
abuse and exploitation. U.S. programs train Afghan law enforcement 
officials on human rights reporting and accountability. Additionally, 
we work with NGOs and Afghan civil society organizations to protect and 
provide community support for victims of child sex trafficking and to 
increase awareness of the laws that criminalize these acts, including a 
2017 Law to Combat Trafficking in Persons and a new penal code, which 
took effect on February 15. The new anti-trafficking law and penal code 
strengthen definitions of trafficking crimes, including child sex 
trafficking, and increase punishments for traffickers.
                               __________

             Responses of Randall G. Schriver to Questions 
                Submitted by Senator Benjamin L. Cardin

                              human rights
    Question. The recent SIGAR report pointed to credible allegations 
of child sexual assault perpetrated by Afghan military and police 
officials and noted the Secretary of Defense has nevertheless invoked 
``notwithstanding authority'' to provide assistance to such units. 
Disturbingly, the report also quotes U.S. service - members who 
``witnessed inappropriate behavior involving Afghan security forces and 
children who thought it would be best to `leave it alone' rather than 
report it.''

    What specific diplomatic or programmatic steps are you taking to 
boost accountability for serious human rights violations, including the 
practice perpetrated by some in the Afghan security services to keep 
children as sex slaves? How are you engaging the Ministry of Defense on 
these and other serious human rights abuses committed by the Afghan 
military? What is needed in this regard?

    Answer. The Department of Defense (DoD) strongly condemns all acts 
of child sexual assault, and has not used the ``notwithstanding 
authority'' to provide assistance to units subject to credible 
allegations of child sexual assault. Any accusations otherwise are 
unfounded.
    Furthermore, neither the Special Inspector General for Afghanistan 
Reconstruction (SIGAR) nor the DoD Inspector General (DoDIG) in their 
recent reports on the implementation of the Leahy Law in Afghanistan 
allege the Secretary of Defense invoked the ``notwithstanding 
authority'' to provide assistance to units with credible allegations of 
child sexual assault. They also found no evidence that U.S. forces were 
told to ignore human rights abuses or child sexual assaults.
    DoD has engaged and continues to engage at the highest levels of 
the Government of the Islamic Republic of Afghanistan (GIRoA) to 
reinforce the importance of respect for human rights by the Afghan 
National Defense and Security Forces (ANDSF). This pressure has 
resulted in changes in Afghan law and policy and increased the Afghan 
government's prosecution of personnel alleged to have perpetrated gross 
violations of human rights, including instances of child sexual 
assault.
                           conflict situation
    Question. I share your and others' concern and anger about the 
recent spate of devastating attacks in Kabul that have taken too many 
innocent lives. This is all the more frustrating given that, as 
indicated in the Department of Defense's 2017 report on Enhancing 
Security and Stability in Afghanistan, the Afghan security forces were 
assessed to have the capacity to maintain control of major population 
centers and, indeed, have been focused on a strategic effort to expand 
security to more of the population across the country.

    Is the conflict dynamic shifting from battlefields in rural 
provinces to a more urban-focused war? How are you positioning U.S. 
troops to advise and assist at the field level, and how is the United 
States' military training, advising, and assistance addressing shifting 
dynamics in the insurgency?

    Answer. The Afghan strategy to end the insurgency and defeat 
terrorists operating within its borders has always focused on 
protecting Afghan citizens, providing good governance, and improving 
the Afghan economy. The ANDSF remain committed to denying the Taliban 
its strategic objectives, including the Taliban's objective to control 
provincial capitals and population centers. To this end, the ANDSF, 
consisting of military forces of the Afghan Ministry of Defense and 
police forces of the Afghan Ministry of the Interior, have conducted 
combined combat operations in rural areas (where insurgents plan and 
train) with increased security operations (combat and law enforcement) 
in urban areas (where insurgents conduct attacks).
    U.S. and NATO forces continue to train, advise, and assist (TAA) 
Afghans at the ministerial, institutional, and operational levels. The 
United States also provides some combat enablers to the ANDSF, 
including intelligence, surveillance, and reconnaissance (ISR), aerial 
fires, and artillery. Under the new South Asia Strategy, U.S. forces 
have the authority to TAA and accompany ANDSF at tactical levels if the 
situation warrants such support. The decision to conduct TAA at the 
tactical level is dictated by the situation and is made by the 
commander on the ground.
              rules of engagement and civilian casualties:
    President Trump has touted his loosening of the rules of military 
engagement to target and kill terrorists, but this also risks further 
exacerbating civilian casualties, which have reached record highs 
already in recent years. Our military has grappled in the past with the 
dangerous effects of civilian casualties in Afghanistan, as it 
undermines Afghans' trust in American forces and exposes us to 
political and legal risks.

    Question. What steps are you taking to address and mitigate 
civilian casualties and ensure the precise and proportional use of 
force in the field? How are you addressing these issues in urban 
contexts, where attacks by insurgent groups have been a growing threat?

    Answer. The United States attaches great importance to the 
preservation of innocent civilian lives. Our values and the law of 
armed conflict guide all of our military operations, which contain 
strong mechanisms for protecting innocent civilian personnel.
    The Secretary of Defense has reinforced, both publicly and in 
Department of Defense (DoD) orders, that all U.S. operations must 
employ all feasible measures to protect civilian noncombatant life. 
This standard to protect civilian noncombatants applies not only to 
high population urban environments, but to all areas of combat 
operations.
                       conditions for withdrawal
    Question. What specifically are the conditions in the 
Administration's ``conditions-based'' approach to determining U.S. 
troop presence in Afghanistan? Are you willing to discuss the specifics 
of an eventual U.S. troop withdrawal to spur progress toward a 
negotiated political settlement, given this is a core issue motivating 
the Taliban to keep fighting?

    Answer. The key tenet of the South Asia Strategy is the adoption of 
a conditions-based approach. We no longer rely on a pre-set date for 
withdrawal, which only encouraged hedging by our adversaries and 
partners alike. We remain committed to the continued development of the 
Government of the Islamic Republic of Afghanistan (GIRoA) and its 
security institutions, provided our Afghan partners continue their 
dedication to democratic ideals, the responsible and transparent 
spending of international aid, and improving their ability to function 
independently. Our resolve and conditions-based approach signal to the 
Taliban and other insurgent elements that they will not be able to wait 
out the United States and our coalition allies and partners.
                               __________

              Responses of John J. Sullivan to Questions 
                    Submitted by Senator Ron Johnson

    Question. Please provide unclassified estimates of the size of the 
Taliban, the Haqqani Network, Al Qaeda and the Islamic State in 
Afghanistan for 2001, 2009 and 2017. For each of the estimates, what is 
the percentage of foreigners compared to Afghans?

    Answer. We lack authoritative unclassified estimates on the size of 
the Taliban, including the Haqqanis, Al-Qaeda (AQ), and the Islamic 
State in Afghanistan (also commonly called ISIS-Khorasan (ISIS-K)) that 
date back to 2001 and 2009. ISIS-K did not coalesce until early 2015.
    Afghan Taliban insurgents, including the Haqqanis, are drawn from 
ethnic-Pashtun tribes in Afghanistan with some tribal recruiting 
territory extending into Pakistan. Despite battlefield losses, neither 
the Taliban nor its constituent Haqqani element has shown signs of 
experiencing manpower shortages. In 2017, we estimated the size of the 
Taliban, including the Haqqanis, to number in the tens of thousands, 
but we caution that this figure fluctuates with the annual onset of the 
fighting season and poppy harvest.
    ISIS-K, like the Taliban, is a mainly homegrown movement. In 2017, 
the group's estimated size was several thousand fighters. Disillusioned 
or opportunistic elements of the Tehrik-e Taliban Pakistan (also known 
as the TTP or ``Pakistani Taliban''), Islamic Movement of Uzbekistan, 
and Afghan Taliban make up the bulk of ISIS-K's ranks in Afghanistan. 
ISIS-K is smaller than the Afghan Taliban yet capable of mounting high-
profile attacks in Kabul and entrenching fighters in pockets of eastern 
and northern Afghanistan. Few ISIS-K fighters are from outside of 
Afghanistan-Pakistan.
    Core AQ has been seriously degraded. The death or arrest of dozens 
of mid- and senior-level AQ operatives, including Usama bin Laden in 
May 2011, have disrupted communication, financial support, facilitation 
nodes, and a number of terrorist plots. Though the most recent estimate 
on the size of AQ in Afghanistan is classified, some unclassified 
estimates approximate that AQ is less than 100 members.

    Question. What percentage of the Taliban is considered to be open 
to negotiations with the Afghan government?

    Answer. The Taliban as an organization has long taken the position 
that it is prepared to negotiate with the United States, though not 
with the Afghan Government, even if recent terrorist attacks show they 
are not serious about negotiations. We have been clear that 
negotiations must include the Afghan government.
    The South Asia Strategy announced by President Trump is a 
conditions-based strategy designed to make clear to the Taliban that 
they cannot achieve their objectives on the battlefield and instead 
must pursue their objectives at the negotiating table with the Afghan 
Government as participants in a peace process designed to come to a 
durable peace agreement.
    It is impossible to know in advance what percentage of the Taliban 
will ultimately join a peace process. It may be that the leadership of 
the Taliban will agree to talk, but encounter resistance from hardened 
rank-and-file commanders. Alternatively, it could be that some 
subordinate elements within the Taliban will be the first to reconcile. 
The Afghan government is exploring all avenues. Ultimately, the 
trajectory of the peace process and the decisions of elements within 
the Taliban will depend on battlefield developments, the Taliban's 
willingness and seriousness about engaging, dynamics within the Taliban 
leadership, Taliban perceptions of U.S. and Afghan sincerity, and the 
effectiveness of the Afghan government in addressing grievances and 
offering incentives for reconciliation.
                               __________

             Responses of Randall G. Schriver to Questions 
                    Submitted by Senator Ron Johnson

    Question. Please provide unclassified estimates of the size of the 
Taliban, the Haqqani Network, Al Qaeda and the Islamic State in 
Afghanistan for 2001, 2009 and 2017. For each of the estimates, what is 
the percentage of foreigners compared to Afghans?

    Answer. Although elements of our intelligence community 
periodically provide estimates on the number of fighters affiliated 
with these terrorist groups, the figures are classified and tend to be 
made with lower levels of confidence. It is difficult to estimate group 
numbers because these groups, beyond senior leadership, are loosely 
affiliated, and prone to factionalizing at the local level. We will 
work with the intelligence community to provide a classified briefing 
on this subject.

    Question. What percentage of the Taliban is considered to be open 
to negotiations with the Afghan government?

    Answer. We do not have a specific number for what percentage of the 
Taliban is open to negotiations. There are complicating factors, even 
among Taliban pragmatists, to any negotiations: there are leaders who 
may perceive risk to the group's cohesion if they agree to participate 
in talks with GIRoA, at least in public, and those leaders who believe 
they may benefit more from the status quo than from participating in a 
more comprehensive political order.

    Question. What are the U.S./NATO fatalities for the past 12 months?

    Answer. U.S. Casualties in Calendar Year (CY) 2017: KIA: 12; WIA: 
146; NATO Casualties in CY 2017: KIA: 2; WIA: 18.
                               __________

              Responses of John J. Sullivan to Questions 
                  Submitted by Senator Jeanne Shaheen

    Question. Secretary Sullivan and Secretary Schriver, according to 
the Department of Defense (DOD) final rule 80 FR 81467 issued in 
December 2015 and the Bilateral Security Agreement between the U.S. and 
Afghanistan signed in September 2014, U.S. contractors in Afghanistan 
are not liable to pay any tax assessed by the government of 
Afghanistan. I am concerned that despite this agreement the Afghan 
government has continued to levy unwarranted taxes on U.S. contractors. 
Are you aware of efforts by the Afghan government to enforce levies on 
U.S. contractors contrary to stated law?

    Answer. The State Department is aware that the Afghan government 
continues to levy tax claims against U.S. DOD contractors and that a 
number of these tax claims have occurred subsequent to the 2015 
Bilateral Security Agreement (BSA). We are engaging the Afghan 
government on this issue. We have also met several times with the 
International Stability Operations Association, which represents U.S. 
contractors, and discussed their members' concerns regarding this 
issue. We continue to work with U.S. contractors and the Afghan 
government to resolve these claims for illegitimate taxation and to 
make sure U.S. contractors are fully aware of legal requirements for 
conducting business in Afghanistan.

    Question. Secretary Sullivan and Secretary Schriver, what means do 
DOD and the State Department have to enforce existing law to ensure 
that the Ministry of Finance in Afghanistan is not taking steps to 
effectively tax DOD contractors?

    Answer. In November 2017, the Combined Security Transition 
Command--Afghanistan (CSTC-A) negotiated an agreement with the Afghan 
Finance Ministry to resolve all ``legacy'' tax claims against U.S. 
contractors which predate the BSA. Embassy Kabul has reported that to 
date the Finance Ministry has dismissed all legacy tax claims against 
eight U.S. contractors which have applied for tax relief under the 
terms of the November 2017 agreement. Bilateral discussions continue 
with the Afghan Ministry of Finance to resolve tax claims made toward 
U.S. contractors following the adoption of the BSA. We regularly raise 
this issue at the highest levels of the Afghan government.
                               __________

             Responses of Randall G. Schriver to Questions 
                  Submitted by Senator Jeanne Shaheen

    Question. Secretary Sullivan and Secretary Schriver, according to 
the Department of Defense (DOD) final rule 80 FR 81467 issued in 
December 2015 and the Bilateral Security Agreement between the U.S. and 
Afghanistan signed in September 2014, U.S. contractors in Afghanistan 
are not liable to pay any tax assessed by the government of 
Afghanistan. I am concerned that despite this agreement the Afghan 
government has continued to levy unwarranted taxes on U.S. contractors. 
Are you aware of efforts by the Afghan government to enforce levies on 
U.S. contractors contrary to stated law?

    Answer. The Department of Defense (DoD), through U.S. Forces-
Afghanistan (USFOR-A), is aware of instances when U.S. contractors 
operating in support of U.S. forces were levied taxes for work 
performed prior to the entry into force of the Security and Defense 
Cooperation Agreement Between the Islamic Republic of Afghanistan and 
the United States (SDCA), also known as the Bilateral Security 
Agreement, on January 1, 2015. However, USFOR-A is unaware of any 
instance to-date were such U.S. contractors were not granted tax relief 
on these ``legacy taxes'' after a joint USFOR-A/Afghan Ministry of 
Finance (MoF) established process for addressing these issues. USFOR-A 
is also unaware of any instances where U.S. contractors were improperly 
taxed since the SDCA whether by the central government or provincial 
authorities, but has received unverified anecdotal accounts.

    Question. Secretary Sullivan and Secretary Schriver, what means do 
DOD and the State Department have to enforce existing law to ensure 
that the Ministry of Finance in Afghanistan is not taking steps to 
effectively tax DOD contractors?

    Answer. The Department of Defense (DoD) and Department of State 
(DOS) maintain a range of options for addressing issues of improper 
taxation assessed on DoD contractors by the Government of the Islamic 
Republic of Afghanistan (GIRoA). Depending on the issue, these options 
include engaging (a) the dispute resolution body established under the 
Security and Defense Cooperation Agreement (SDCA), also known as the 
Joint Commission, (b) the Afghan Ministry of Finance (MoF), and/or (c) 
the Afghan Revenue Department (ARD). When presented with actionable 
information from USFOR-A, these organizations have proven responsive to 
DoD and DOS raised issues.
                               __________

              Responses of John J. Sullivan to Questions 
                    Submitted by Senator Todd Young

    Question. In his State of the Union address, President Trump said, 
``I am asking the Congress to pass legislation to help ensure American 
foreign-assistance dollars always serve American interests, and only go 
to America's friends.'' Can you provide more detail on what specific 
reforms the administration is seeking from Congress related to foreign 
assistance? Will the Department of State provide more details to my 
office regarding what reforms the administration might like to see 
related to foreign assistance?

    Answer. The FY 2019 budget request provides the necessary resources 
to advance peace and security, expand American influence, and address 
global crises, while making efficient use of taxpayer resources. It 
modernizes State Department and USAID diplomacy and development to 
advance a more secure and prosperous world by helping to support more 
stable and resilient societies that will lead to their own development.
    We believe it is important to assess our foreign assistance based 
on a number of factors, with the top reason being that our assistance 
should serve American interests. Countries' support for U.S. priorities 
in international fora is one indicator to consider, but there are other 
important factors to consider as well. We look forward to working with 
you and the rest of the Congress to ensure any legislation serves 
American interests.

    Question. In your written statement you highlight the importance of 
our relationship with India--both generally and in Afghanistan. Not 
only do our two countries share interests in Afghanistan, but we also 
share democratic values and important strategic and economic interests. 
If there is anything I can do to help strengthen further the 
relationship between the U.S. and India, please let me know. Will you 
do that?

    Answer. Secretary Tillerson and I look forward to collaborating 
with you and the Senate Foreign Relations Committee as we work to 
strengthen the U.S.--India relationship. India is a close U.S. partner, 
and the Administration is committed to supporting its development as a 
leading security provider in the Indian Ocean region. The State 
Department seeks to expand and deepen the U.S. strategic partnership 
with India to advance our common objectives, including combatting 
terrorist threats, promoting stability and prosperity across the Indo-
Pacific region, and increasing free and fair trade. We also are 
committed to increase U.S. exports to India and reduce the U.S. trade 
deficit, including through increased sales of civil and military 
aircraft as well as energy commodities, technology, and services. We 
welcome India's pledge to contribute $3 billion in bilateral 
development assistance to Afghanistan, and we are committed to 
continuing close consultation and cooperation with India in support of 
Afghanistan's democracy, development, and security.
                               __________

              Response of Randall G. Schriver to Question 
                    Submitted by Senator Todd Young

    Question. Will you please provide an update on the development of a 
Security Force Assistance Brigade in the National Guard?

    Answer. An Army National Guard SFAB will be developed with its 
Headquarters in Indiana and subordinate units in six other states. 
Under current projections, this Army National Guard SFAB will become 
initially operational in Fiscal Year 2019 and fully operational in 
Fiscal Year 2021, and will provide the same capabilities as an active 
duty SFAB.

                 List of Afghanistan Compact Benchmarks
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


 Response of Deputy Secretary Sullivan to a Follow-Up Question to His 
March 7, 2018 Briefing to Senator Menendez Regarding Efforts to Counter 
                         Russian Disinformation

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



  Correspondence Relating to Assistant Secretary Schriver's Testimony
                        [see pages 22-23 above.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



         Assistant Secretary Schriver's Response to a Request 
                  for Information from Senator Corker

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



                                  [all]
</pre></body></html>
